<html>
<title> - A REVIEW OF THE DEPARTMENT OF HOMELAND SECURITY'S POLICIES AND PROCEDURES FOR THE APPREHENSION, DETENTION, AND RELEASE OF NON-CITIZENS UNLAWFULLY PRESENT IN THE UNITED STATES (PART II)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





    A REVIEW OF THE DEPARTMENT OF HOMELAND SECURITY'S POLICIES AND 
PROCEDURES FOR THE APPREHENSION, DETENTION, AND RELEASE OF NON	CITIZENS 
           UNLAWFULLY PRESENT IN THE UNITED STATES (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 19, 2015

                               __________

                           Serial No. 114-13

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-538 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                    
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
     Art Arthur, Staff Director, Sub Committee on National Security
                   Sang Yi, Professioal Staff Member
                           Sarah Vance, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 19, 2015...................................     1

                                WITNESS

The Hon. Sarah R. Saldana, Director, U.S. Immigration and Customs 
  Enforcement
    Oral Statement...............................................     6
    Written Statement............................................     9

                                APPENDIX

Breakdown of the Subsequent Convictions Associated with Criminal 
  Aliens Placed in a Non-Custodial Setting in Fiscal Year 2013...    52
Figure 5. ICE Interior Deportations: 2009-2014...................    90
Letter to Hon. Charles E. Grassley from Thomas S. Winkowski......    91
Website for The ``Recidivism of Prisoner Released in 30 States in 
  2005: Patterns from 2005 to 2010'' Report......................    96
QFR's from Sarah R. Saldana to Chairman Jason Chaffetz...........    97

 
    A REVIEW OF THE DEPARTMENT OF HOMELAND SECURITY'S POLICIES AND 
PROCEDURES FOR THE APPREHENSION, DETENTION, AND RELEASE OF NON-CITIZENS 
           UNLAWFULLY PRESENT IN THE UNITED STATES (PART II)

                              ----------                              


                       Thursday, March 19, 2015,

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                            Washington, DC.
    The committee met, pursuant to notice, at 9:04 a.m., in 
room 2154, Rayburn House Office Building, the Honorable Jason 
Chaffetz(chairman of the committee) presiding.
    Present: Representatives Chaffetz, Mica, Walberg, Amash, 
Gosar, Massie, Meadows, DeSantis, Mulvaney, Buck, Walker, Hice, 
Russell, Carter, Grothman, Hurd, Palmer, Cummings, Maloney, 
Norton, Connolly, Cartwright, Duckworth, Lawrence, Plaskett, 
DeSaulnier, and Lujan Grisham.
    Chairman Chaffetz. The committee will come to order.
    I thank everybody for joining us here today. Without 
objection, the chair is authorized to declare a recess at any 
time.
    We are here today to continue a discussion that began a few 
weeks ago at a joint subcommittee hearing about the President's 
executive actions on immigration. I want to thank the 
subcommittee chairmen, particularly Ron DeSantis and Jim 
Jordan, for starting the committee's review of the new 
immigration apprehension policies that Secretary of Homeland 
Security Jeh Johnson announced on November 20th of the year 
2014. We now have a better understanding of the various ways 
those policies may undermine local law enforcement efforts to 
protect the public.
    Today we are going to followup with questions for the newly 
confirmed Director of Immigration and Customs Enforcement, ICE, 
Ms. Sarah Saldana, and about how ICE will actually enforce the 
immigration laws and how their enforcement posture will affect 
public policy.
    We want to particularly thank the men and women who do the 
hard job and work within ICE. They put their lives on the line 
every day and we are very grateful for their service, and we 
are thankful for your service and participation here today.
    This hearing is important because it allows us to determine 
whether non-citizens who committed serious offenses will be 
apprehended, detained, and then ultimately removed per the 
promise that the President of the United States gave the 
American people.
    The President's executive actions will have two very 
different effects on approximately 11 million non-citizens 
unlawfully present in the United States. Through Deferred 
Action for Childhood Arrivals, or DACA, and Deferred Action for 
Parents of Americans and Lawful Permanent Residents, or DAPA, 
as it is referred to, the Administration intends to provide 
benefits to about five million otherwise unlawfully present in 
the Country.
    Earlier this month, the subcommittees conducted a hearing 
focused on how these executive actions may make it easier for 
these individuals to register to vote illegally. Just this past 
Tuesday, the subcommittees examined the fiscal costs of these 
actions to the Federal and State Governments.
    Secretary Johnson's November 20th, 2014, announcement will 
also have an effect on others unlawfully present in the United 
States. In essence, it will provide de facto amnesty for many 
of the remaining six million non-citizens unlawfully present in 
the United States who are not directly covered by DACA or DAPA. 
Unless these individuals fall within the carefully 
circumscribed categories, their removal will not be a priority 
for Department of Homeland Security.
    But the core reason we are here today, even under the 
immigration policies that predated that announcement, convicted 
criminals who are unlawfully present in the United States have 
been released in staggering numbers. And this I simply just 
don't understand. The President, the Secretary, the 
Administration, time and again has promised the American people 
that if you are convicted, if you are a criminal, you are going 
to be deported. But that is not what is happening.
    According to ICE, 36,007 convicted criminal non-citizens 
were released in Fiscal Year 2013. In the year 2014 that number 
is roughly 30,000. More than 60,000 people. These are people 
that are here illegally, committed a crime, were convicted, and 
then they were released back into the public, rather than being 
deported. That is the question that is posed to us today.
    Of the 36,007 individuals from the year 2013, not too long 
ago, they amassed nearly 88,000 convictions--not accusations, 
convictions--including 193 homicide convictions, 426 sexual 
assault convictions, 303 kidnaping convictions, 16,070 drunken 
or drugged driving convictions. Convictions.
    As of September 2014, 5,700 of those individuals went on to 
commit another crime. They are here illegally, they get caught, 
they get convicted, they get released, they go back and commit 
another crime. One thousand of those individuals were convicted 
again for offenses including lewd acts with a child under the 
age of 14, indecent liberty with a child, child cruelty, 
possible injury or death, driving while intoxicated.
    I can't even imagine being a parent and having my child 
molested by somebody who is here illegally. The President 
promises he is going to be deported and they didn't. They 
released them back out. And I want to know from ICE why that 
is. It is intolerable. I could never look the parents of those 
children in the face with what has been done here.
    The joint subcommittee heard compelling testimony from two 
family members of victims of these types of criminals. In 
January of this year, 21-year-old Grant Ronnebeck was murdered 
while working at a convenience store in Mesa, Arizona by a non-
citizen unlawfully present in the United States. Prior to 
Grant's death, his murderer, Apolinar Altamirano, was facing 
deportation proceedings after being convicted of burglary, but 
released on a $10,000 bond just 4 days after his detention in 
2013.
    In March 2008, Jamiel Shaw was a 17-year-old high school 
football star in Los Angeles, California, when he was murdered 
by Pedro Espinoza, an illegal immigrant gang member who had 
been released from jail just 2 days before after serving time 
for assault with a deadly weapon. They released him back into 
the public.
    While the Department of Homeland Security was invited to 
testify at that previous hearing, they declined. And I think it 
is important for the Department representative to hear and see 
from the American people those lives that are directly impacted 
by these policies.
    We put together a very brief video which is a highlight 
from the last hearing, and I would like to play that now, if I 
could, please.
    [Video.]
    Chairman Chaffetz. I don't know how you look into the eye 
of Mr. Shaw. Our heart bleeds for somebody like that. The 
person is here illegally. Are there good people that are here 
that probably shouldn't be here? Yes, I am sure there are. But 
we are talking about the criminal aliens. We are talking about 
people that are convicted of violent crimes. And instead of 
being picked up and deported, as the President promised, that 
person was put back out on the street and committed murder.
    I am going to ask unanimous consent to enter into the 
record 1,000 of these convictions. This is a list, it is 
numbered 1 to a 1,000, a breakdown of subsequent convictions--
subsequent convictions--associated with criminal aliens placed 
in non-custodial setting. And this is just the Fiscal Year 
2013.
    Without objection, so ordered.
    Chairman Chaffetz. It is not difficult to imagine that 
people like Mr. Ronnebeck and Mr. Shaw often wonder if their 
loved ones would still be here today if our immigration 
enforcement laws were enforced.
    Secretary's Johnson's November 20th announcement exposes 
the American people to even greater danger. In his November 
20th, 2014 guidance, Secretary Johnson set forth three levels 
for priorities for immigration enforcement. The top priority 
for deportation was listed as terrorists, spies, and other 
threats to national security; those apprehended at the border 
and ports; some criminal street gang members; and certain 
aliens convicted of felonies.
    While these should be priorities for deportation, the 
agency is no longer considering as the top priority for 
apprehension aliens who have been convicted of certain 
misdemeanors, including sexual abuse or exploitation, drug 
distribution or trafficking, burglar, firearms offenses, 
driving under the influence, domestic violence.
    Talk about a war on women. This is not a priority for this 
Administration. This is not a tier one priority according to 
Homeland Security. These are offenses that also endanger our 
communities and affect a much larger number of Americans in a 
very personal way. Many criminals, including some that Congress 
has Stated should be subject to mandatory detention, are not 
listed as a priority for removal at all.
    While Secretary Johnson's November 20th, 2014 
prioritization guidelines dictate that ``due to limited 
resources, DHS and its components cannot respond to all 
immigration violations or remove all persons illegally in the 
United States,'' the Department does not appear to be using all 
the resources it has available to enforce the immigration laws.
    According to statistics from ICE reviewed by the Center for 
Immigration Studies, from 2009 to 2014, there was almost a 60 
percent decline in annual deportations. In other words, while 
2009 ICE deported more than 236,000 individuals from the 
interior of the United States, in 2014 ICE deported around 
1,224.
    The number of criminals deported from the interior declined 
by 21 percent between 2013 and 2014. It went from 110,115 down 
to 86,923. Further, Congress provided ICE with funding for 
34,000 detention beds and mandated those beds be filled. 
According to a review of ICE records, however, the average 
daily population of detainees has declined every year since 
Fiscal Year 2012. As of January 2015, the average daily 
detainee population was 25,480, the lowest level since 2006, 
when the bed mandate was at 20,800.
    I have seen firsthand the hard work of the people within 
Customs and Border Patrol and ICE. I can't thank them enough 
for their good work. But we are not fulfilling the mission that 
was promised by the President of the United States. I think 
this body is committed to making sure that criminal aliens are 
deported, and that is why we are having this hearing here 
today.
    I have gone well past my time. We will now recognize the 
gentleman from Maryland, the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I 
thank you for holding this hearing. I think it is a very 
important hearing.
    This morning, as I read over the testimony from the 
subcommittee hearing that took place about a month ago, I could 
not help but feel a deep sense of sorrow for Mr. Shaw and his 
family, and Mr. Ronnebeck and his family. As one who 
experienced the murder of my nephew, who was like a son to me, 
three and a half years ago, I know the pain that comes with 
that, to see a young person's life snuffed out. So I can 
understand, Mr. Chairman, how you feel.
    And that puts a lot of weight on you, Assistant Secretary 
Saldana, and I hope you can understand that members on both 
sides of the aisle have our concerns and have a lot of concern 
about this. So I want to thank you for being here, and I am 
sure you will explain exactly what your priorities are and how 
those things are laid out, and hopefully talk about the court 
decisions that dictate how you do what you do.
    There are about 11 million undocumented immigrants in our 
Country today. Many of these people are from hard-working, 
taxpaying families simply looking for a better life. Many have 
lived here since they were children and many have raised 
children of their own. They are the ones that I met this 
weekend, about 150 of them, who were law-abiding people, and 
the thing that they said to me over and over again is why do 
they consider us all criminals. They also said that they simply 
wanted to keep their families together.
    I heard firsthand how they live in fear and uncertainty 
about their futures. They work hard and make their homes in our 
neighborhoods; yet they live every day in the dangerous 
outskirts of our society. Almost everyone agrees that our 
immigration system is broken. That is right, this is not a 
bulletin coming over the wire. Everybody knows the system is 
broken.
    In the last Congress, the Senate passed legislation 
supported by Democrats and Republicans that would have offered 
a comprehensive approach to this problem. The bill not only 
would have provided a responsible path to citizenship for those 
who passed background checks and meet other requirements, but 
it also would have improved our visa systems and established 
stronger enforcement mechanisms.
    The House Republicans refused, refused to call up this bill 
for a vote. I guarantee you, if it had been called up for a 
vote, it would have passed.
    Despite Speaker Boehner's pledge to address comprehensive 
immigration reform, a minority of House members in the 
Republican party stood in the way, blocking, blocking 
comprehensive reform. As a result, in November, I joined with 
116 of my colleagues urging President Obama to use his 
executive authority to address some of the problems facing our 
immigration system.
    On November 20th, 2014, the Administration took a series of 
steps to strengthen enforcement, enhance public safety, and 
temporarily provide peace of mind to qualifying immigrants. In 
response, House Republicans attacked the Administration's 
actions, even as they refused to act themselves. For example, 
they held up funding for the Department of Homeland Security 
and they criticized the Administration for not removing 
immigrants who commit crimes.
    Let me make a few points for the record in response to this 
claim. The Obama Administration has removed more people from 
this Country than any administration in history. Removals hit 
an all-time high of 438,421 individuals in 2013.
    Now, Secretary Saldana, as I read the transcript, there was 
an issue as to the counting and how that counting was done. I 
would like for you to talk about that. There was an issue as to 
whether this Administration is counting differently than past 
administrations.
    Under the Obama Administration, criminal removals have also 
reached record highs. They have more than doubled from the 
prior administration, increasing from 84,000 in 2003 to 2007 in 
2012.
    With respect to the release of immigrant criminals, the 
Administration is bound by court cases and immigration judge 
rulings that require releases in many instances. In other 
cases, DHS releases detainees on a discretionary basis after 
weighing risk factors, including criminal records, medical 
histories, and flight risk.
    These are the same types of factors routinely considered by 
local, State, and Federal law enforcement agencies every single 
day for the general population. In fact, according to an April 
2014 report issued by the Department of Justice, the recidivism 
rate after 12 months for prisoners released across 30 States is 
more than 20 percent. In contrast, DHS data on immigrant 
criminals released in Fiscal Year 2013 shows a recidivism rate 
of less than 3 percent.
    I want to be clear here. These decisions are not easy, and 
the dangers of recidivism are very, very real. Personally, I 
would be devaStated to learn that someone who injured or killed 
a member of my family had been in custody, but was released. 
And I would feel exactly the same way regardless of whether the 
attacker was an immigrant or a United States citizen.
    We have the ability to work together to tackle these 
issues. That is what the American people want. They do not want 
us walking away from the hard problems, leaving them on the 
table when we go home.
    The fact is that the comprehensive immigration bill adopted 
by the Senate on a bipartisan basis would have doubled the 
number of Border Patrol agents, established an improved system 
for employers to verify their workers' legal status, and 
provided new security measures along the border. But it was 
never allowed a vote in the House of Representatives. So it is 
time to reach out across the aisle and pass comprehensive 
immigration reform legislation.
    So I look forward to your testimony.
    And with that, Mr. Chairman, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for five legislative days for 
any member who would like to submit a written Statement.
    We will now recognize our sole witness today. I am pleased 
to welcome the Honorable Sarah Saldana, Director of U.S. 
Immigration and Customs Enforcement. Welcome.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify, so if you would please stand and raise 
your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    [Witness responds in the affirmative.]
    Chairman Chaffetz. Thank you. You may be seated.
    We try to hold the testimony to 5 minutes, but we will give 
you some latitude. Your entire written comments will be entered 
into the record.
    You are now recognized. Thank you.


  STATEMENTS OF THE HONORABLE SARAH R. SALDANA, DIRECTOR, U.S. 
              IMMIGRATION AND CUSTOMS ENFORCEMENT

    Ms. Saldana. Thank you, Chairman, thank you, Ranking Member 
Cummings, and other committee members. I appreciate the 
opportunity to testify today, and I really do mean that. I know 
that many remarks made to this committee start out like that, 
but I will tell you this is the first congressional committee 
that I have testified before since I have been the assistant 
secretary for Homeland Security Immigration and Customs 
Enforcement, 86 days, 9 hours, and 25 minutes ago.
    I consider this a very important part of my job. I do not 
shirk away from it and I welcome it, and it is part of my 
education to hear from you all as to your concerns.
    As you all know, ICE has a very vital role in securing the 
homeland through the enforcement of more than 400 laws 
governing immigration. But we also have laws that affect border 
control, customs, and trade.
    I most recently served as the United States attorney for 
the Northern District of Texas. I say that very, very proudly. 
One of the greatest jobs in the world, you will hear every U.S. 
attorney say. As the chief Federal law enforcement officer for 
a district that spanned 97,000 square miles, I oversaw the 
enforcement of these 400 laws and, quite frankly, thousands 
more under all the Federal statutes.
    From my early years cutting my teeth, my prosecutorial 
teeth on the immigration docket in my office to these first 90 
days as Director of Immigration and Customs Enforcement, I have 
personally observed what the chairman recognized, and that is 
the talent and dedication of ICE's agents, its officers, its 
attorneys, its international and mission support staff as they 
go about the business of securing the homeland. I consider it a 
great privilege to continue my law enforcement career as the 
leader of this agency.
    Given the topic upon which you have asked me to testify, I 
want to give you a brief overview of ICE's enforcement and 
removal operations, a little bit about our recent activity, and 
then also just highlight some of the challenges that we face.
    ICE's Enforcement and Removal Operations Office, again, 
just a portion of what ICE does, a significant portion, 
referred to as ERO, is a team of almost 6,000 dedicated law 
enforcement offices stationed throughout the world, actually, 
who apprehend and remove undocumented immigrants in a way that 
focuses our finite resources on those who present the greatest 
risk to the American public.
    In carrying out this mission, they have a wide array of 
important, very important and complex responsibilities, not the 
least of which are overseeing the detention facilities, 
coordinating departures all over the world, and obtaining 
travel documents from other countries, some of which do not 
care to cooperate with ICE in any manner.
    We work closely with our sister agencies within the 
homeland security umbrella, Customs and Border Protection, as 
they encounter and apprehend undocumented immigrants at our 
borders and at our ports of entry; and citizenship and 
immigration services as they perform their immigration benefit 
services.
    In 2014, ICE removed nearly 316,000 individuals unlawfully 
present in the United States. More than 213,000 of these 
individuals were apprehended while or shortly after attempting 
to cross our borders. I should point out, in line with the 
theme of the opening remarks of our chairman and ranking 
member, that about 85 percent of these interior removals were 
of undocumented immigrants previously convicted of a criminal 
offense. That is an 18 percent increase over 2011 and it 
reflects the agency's renewed focus for some time now on 
aggressively targeting and removing the worst criminal 
immigrants: security threats, convicted felons, gang members, 
and the like.
    With respect to the operational challenges we face, first, 
as you all well know, our Country faced an unprecedented 
migration of families last summer, including unaccompanied 
children coming up from the Rio Grande Valley, which required 
ICE, as well as many other agencies, to shift resources to 
address that. ICE detailed or transferred almost 800 personnel 
away from what they were doing and additional monetary 
resources to deal with this extraordinary influx.
    A second challenge is the dramatic increase in the number 
of jurisdictions that have declined to cooperate with ICE in 
its law enforcement activities. A detainer advises other law 
enforcement agencies that ICE intends to assume custody of an 
individual before that individual is released from the agency's 
custody, and we ask that individual to be held for a very short 
time until we can get that custody.
    Re-arresting at-large criminal aliens released by State and 
local jurisdictions only increases the already extraordinary 
risks our law enforcement officers already face, and is a waste 
of resources that reduces the number of criminal aliens ICE can 
apprehend and remove.
    Last calendar year, State and local jurisdictions rejected 
more than 12,000 ICE detainee requests. These are convicted 
criminals. And ICE has been denied access to more than 275 
detention facilities, including those in some of our Country's 
largest cities and States.
    A third challenge we face is the changing migrant 
demographic. We have recently seen more Central Americans and 
fewer immigrants from Mexico attempting to cross our borders. 
It requires more time and resources to complete the removal 
process for Central Americans, as they demand additional time, 
resources, staff, enhanced efforts to get travel documents to 
remove them, and the arrangement of air transportation.
    My first 90 days or so as director have been full, both in 
becoming familiar with the challenges as I just described that 
face ICE and in formulating and implementing plans to try to 
address them.
    I would be remiss if I did not express my gratitude, since 
obviously we cannot do our job without proper funding, for the 
passage earlier this month of a full year appropriation bill 
for the Department of Homeland Security, which include our 
agency and its 20,000 employees.
    Let me conclude by saying, Mr. Chairman, that I left my 
family, my friends, the State I have lived in for all my 63 
years behind, which, as many of you here facing me have done so 
as well, for the sole purpose, for the sole purpose of 
assisting a very proud agency to move forward and to help in 
whatever small way I can, help our Country to address these 
very difficult, complex, and divisive issues facing the 
Country.
    Thank you, and I look forward to your questions.
    [Prepared Statement of Ms. Saldana follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you.
    I will now recognize myself for 5 minutes.
    Madam Director, if you are a criminal, will you be 
deported?
    Ms. Saldana. Those are the people we are looking for, yes.
    Chairman Chaffetz. But they have been in your detention. 
They have been detained. They were convicted. Were they 
deported?
    Ms. Saldana. They are in the process of being deported. 
Everyone in our detention facilities is in the process of being 
deported, chairman.
    Chairman Chaffetz. Well, that is not true. I mean, you 
regularly release them back out into the public before they get 
deported, correct?
    Ms. Saldana. Actually, I do want to address that number. I 
think you talked about 36,000, Chairman, earlier?
    Chairman Chaffetz. Yes.
    Ms. Saldana. And I think you, the members of this 
committee, and the American public deserve a thorough 
explanation regarding that 36,000.
    I think I mentioned earlier, we have many challenges at 
ICE. One of them is the opinions we get from the highest court 
in the land, the Supreme Court. You all are familiar and have 
heard the term Zadvydas, which is the Supreme Court decision 
that requires ICE, requires ICE, does not give us an option, to 
release persons without hurting them.
    Chairman Chaffetz. Our time is all limited.
    How many criminal convicted aliens were released under the 
discretionary authority of ICE?
    Ms. Saldana. You mentioned 36,007 in Fiscal Year 2013. A 
little bit more were those that we don't have any discretionary 
control over.
    Chairman Chaffetz. So you don't automatically deport them, 
correct?
    Ms. Saldana. Automatically, sir? No. The statute, the laws 
that this Congress has passed, deny these people due process.
    Chairman Chaffetz. No, no, you have discretion. You have 
discretion. You have a lot of discretion. You said half of them 
you have discretion.
    Ms. Saldana. Yes, sir. The law gives us that discretion.
    Chairman Chaffetz. So when you say, if you are a criminal, 
you will be deported, that is not necessarily true.
    Ms. Saldana. It is true, sir.
    Chairman Chaffetz. After they get released back into the 
public for untold number of times?
    Ms. Saldana. It does happen. It does happen, yes, that is 
exactly what we are here to do.
    Chairman Chaffetz. What does happen, they get released?
    Ms. Saldana. Yes. Even criminals that are released. And, 
mind you, we are talking about--let's focus on the ones that 
you were talking about with respect to ICE, the 22,000 or so in 
2013. Those people were released under the laws of the United 
States. We are allowed to, discretionarily, as you pointed out, 
to give a bond.
    Chairman Chaffetz. But you could have deported them. You 
could have deported them, correct? And you chose not to.
    Ms. Saldana. No, sir, it is not a matter of choosing; it is 
a matter of following the law.
    Chairman Chaffetz. No. You have discretion. That is not 
what the President of the United States said. He said if you 
are a criminal, you will be deported. That is not true.
    Ms. Saldana. The discretion you are talking about, sir, if 
I may explain to you so that you and the American public can 
appreciate what the process is.
    Chairman Chaffetz. Sure.
    Ms. Saldana. The discretion we have is to determine custody 
pending that person's removal. The removal process is in the 
hands of the immigration courts. Those immigration courts are 
under the auspices of the Department of Justice, the Department 
I previously worked for. And with respect to those people, it 
can take, following due process, months and even years to 
deport folks.
    Chairman Chaffetz. And that is what is the total 
disconnect. Do you believe that somebody who is convicted of 
domestic violence, sexual abuse, or exploitation, burglary, 
unlawful possession, use of a firearm, drug distribution, drunk 
driving, are those dangerous?
    Ms. Saldana. Yes, those are dangerous crimes.
    Chairman Chaffetz. And yet they are your priority too; they 
are not even your top priority.
    Ms. Saldana. The priorities are priorities, sir, whether 
they are one, two, or three.
    Chairman Chaffetz. But they are not your top priority. Let 
me ask you this. This is the weekly departure detention report 
from ICE dated January 26, 2015, and in that report it says 
there are 167,527 non-detained, final order convicted criminals 
on the loose in the United States, correct?
    Ms. Saldana. What was that number, sir, again, over what?
    Chairman Saldana. It is 167,000 convicted felons. These are 
people--I shouldn't say felons. Convicted people. These are 
people that are here illegally, get caught, get convicted, and 
you release back into the public.
    Ms. Saldana. Sir, we only release pursuant to the statute. 
I don't know of a single officer, detention officer or other 
officer, that comes to encounter an illegal immigrant who looks 
at that person and says, you know what, I think I am going to 
release someone into the public who can commit another crime.
    Chairman Chaffetz. But that is what you are doing. That is 
what is happening. Your budget request requested less beds, not 
more beds. You could have detained these people. And the 
President promised the American people he would deport them, 
and he is not.
    Ms. Saldana. I am very familiar with detention and the idea 
of detention, chairman, because as a United States attorney we 
face these decisions every day in the courts. So do the Federal 
judges we practice before. Detention is provided by statute, 
and the considerations for detention are provided by statute.
    Chairman Chaffetz. Don't be blaming all the courts. You 
have discretion on this and you have made some very, very bad 
decisions. It is inexcusable to have somebody who has been 
convicted of these crimes and not immediately deport them. The 
parents that we listened to there, why were these people--these 
persons are convicted and they go out and they murder people. I 
listed off all the statistics.
    My time has expired, but don't tell me that it is just the 
courts and you are mandated by law to do this. You have 167,000 
convicted criminals who are here illegally that should be 
deported that are on your list, and you better give us an 
explanation about how you are going to round those people up 
and immediately get them deported. I don't think you have a 
game plan to do that.
    Ms. Saldana. I am trying, chairman.
    Chairman Chaffetz. What is your plan to do that? And then I 
will yield to the ranking member.
    Ms. Saldana. Our plan is what we do every day. You 
mentioned these convicted felons out there. We have information 
in data bases that we use hundreds of people, both right here 
in the District.
    Chairman Chaffetz. These people were already in your 
possession and you let them go. They were already sitting in 
jail and you let them go.
    Ms. Saldana. Chairman? There is a process provided by 
statute in which the officers, Congress gave us the authority 
to exercise discretion with respect to every person, as we do 
on a case-by-case analysis, not picking and choosing little 
facts out of a file, but the entire picture of this individual. 
Is this person terminally ill and cannot be removed from the 
Country because we cannot get medical authorization to do so? 
That is actually one of those cases you are talking about. This 
is an exercise that we take very seriously and we determine on 
every case's facts.
    Chairman Chaffetz. So you are telling me because they have 
a medical condition, you are going to release them back out 
into the public?
    My time is far expired.
    I will now recognize Ms. Plaskett from the Virgin Islands. 
You are now recognized for 5 minutes.
    Ms. Plaskett. Yes, good morning and thank you, Mr. 
Chairman, ranking member.
    Secretary Saldana, I thank you so much for the work that 
you and your agency are doing. I actually was at the Justice 
Department and working with Larry Thompson and then Jim Comey 
when your Homeland Security was created, and I think that it 
has come a far way in its mandate and the mission that it has.
    I wanted to talk a little bit about this discretion that 
the chairman was taking you through in his questioning, and I 
want to focus on where that discretion comes from, the 
prosecutorial memorandum that was issued that was created, I 
believe, because you have not just the courts and the laws, but 
also limited resources in determining how you are going to 
detain the individuals that you have, and prioritizing those 
based on not only the law, but the resources, as you said, the 
finite resources that are available to your agency.
    I did want to note in your testimony that you did say, 
however, that despite this there has been an 18 percent 
increase in the amount of individuals that have been deported 
over the very small period of time and that you are working in 
that area. So if you would focus your attention on the 
executive actions that you are taking based on that memo. It 
provides guidelines for prosecutors and specifically targets 
areas that we believe are the highest threat to the entire 
homeland, that being our national security, public safety, and 
border security.
    Could you please explain how this memorandum is different, 
also, from past guidance that was regarding prosecutorial 
discretion?
    Ms. Saldana. Thank you, Congresswoman. Yes, I do want to 
talk about this subject because, actually, I have been 
exercising prosecutorial discretion for over 10 years as a 
United States attorney and assistant United States attorney 
and, of course, now in managing ICE.
    I should say that the origins of prosecutorial discretion 
are those that you all have given the Secretary of Homeland 
Security. Perhaps not the individuals in this room today, but 
the Congress. And I will read from the 2015 bill that was 
passed that I thanked you for earlier, chairman, where it says, 
specifically in the language that you authorized, that the 
Secretary of Homeland Security shall prioritize the 
identification and removal of aliens convicted of a crime by 
the severity of that crime. That is precisely what you have 
directed the secretary to do, that is what the secretary has 
directed me to do, and that is what we have done.
    As the United States attorney, as I said earlier, I think 
somebody at the Department of Justice tried to count the number 
of statues that we are responsible for enforcing. The person 
stopped at 3,000. There is no way that, with the limited budget 
that United Stated attorneys have and, by analogy, that the 
director of ICE has, finite resources, that we can prosecute, 
in the case as the United States attorney, that I could 
prosecute people who break the 3,000-plus Federal laws of the 
United States.
    So, as a United States attorney, I set specific 
prosecutorial guidelines for my office to make sure that we 
were having the greatest public safety impact over that 97,000 
square mile district that I described earlier. The greatest 
impact to ensure that. I would have loved to have prosecuted 
every case.
    Ms. Plaskett. So in the discussion that the chairman had 
about priority No. 1, it is the agency's belief that that is 
the highest impact to the United States by doing that.
    Ms. Saldana. Yes. Obviously, terrorists, convicted felons, 
persons who are gang members, all of those who threaten public 
safety. The secretary has very clearly laid out--you asked 
about the difference between the guidance that already existed. 
I would probably have come in and reviewed that guidance and 
made my own decisions, but the secretary had just reviewed 
that, sent out his memo of November 20th, and specifically 
outlined those priorities.
    Ms. Plaskett. So to further that discussion, when the 
chairman said priority one, that includes terrorism and 
espionage, aliens apprehended at the border while attempting 
unlawfully to enter, aliens convicted of an offense that are 
related to criminal street gang, felon in a convicting 
jurisdiction, and convicted of aggravated felony.
    Priority two, which was alluded to, were misdemeanors, 
correct?
    Ms. Saldana. Yes. And significant misdemeanors. And I 
should also point out, because I have directed all my staff to 
do this, that the priorities specifically allow for that person 
facing the individual illegal immigrant to exercise their best 
judgment, as we expect of them every day, that even if they 
don't meet those three priorities, if in their opinion, based 
on all the facts and circumstances pertaining to that 
individual, that they deem them to be a public safety threat, 
that we detain those people and put them in removal 
proceedings.
    Ms. Plaskett. Well, I see that I have run out of my time, 
and I just want to once again thank you and thank the chairman 
and ranking member for allowing us to discuss this issue 
because, of course, the release of convicted felons and release 
of individuals is something that none of us want. But we do 
understand the limited resources that you are working with and 
the efforts that all of our law enforcement are making to 
continue to make our homeland safe.
    Thank you, and I yield the balance.
    Chairman Chaffetz. I thank the gentlewoman.
    We now recognize the gentleman from Florida, Mr. Mica, for 
5 minutes.
    Mr. Mica. Thank you, Mr. Chairman.
    Director, welcome. I have a couple of questions. I heard in 
your opening testimony I know you say that you administer 500 
laws and maybe as many as 3,000----
    Ms. Saldana. Four hundred for ICE, sir, 3,000 or thousands 
more with respect----
    Mr. Mica. So a lot of laws that you are responsible for 
enforcing. You have also had a couple of actions by the 
President, one for Deferred Action of Parents of Americans, or 
legal permanent residents, DAPA and DACA, Deferred Action for 
Childhood Arrivals that the President has ordered as actions. 
It has created a certain amount of confusion, too, I think, 
with some of the line officers, as to what they are supposed to 
enforce, whether the law or these actions.
    What are they supposed to enforce?
    Ms. Saldana. They are supposed to enforce all the 
immigration laws.
    Mr. Mica. The laws would take precedent over the 
President's action requests?
    Ms. Saldana. As I mentioned earlier, with those difficult 
decisions as I had with a United States attorney, Congressman, 
we have focused the attention of all of our officers, the 5,000 
or so that I mentioned, to focus on those who most threaten our 
national security.
    Mr. Mica. But there is confusion. In fact, I got a release 
from the National Border Patrol Council, and they were 
concerned about the President's threats for consequences for 
Border Patrol agents. That is what this says. When the 
President was in my State, ok Miami, recently, he said there 
would be consequences. So some of it Border Patrol, again, are 
concerned about what those consequences would be.
    What are the consequences for noncompliance that they face?
    Ms. Saldana. And as I mentioned, Congressman, Border Patrol 
is our sister agency; they are the folks at the border and the 
ports of entry.
    Mr. Mica. Right.
    Ms. Saldana. I am responsible for ICE, and this is what we 
have done with respect to clearing any confusion that there is. 
We have required very specific training to have been completed 
by 100 percent, not 98, 96, 95, but 100 percent----
    Mr. Mica. Well, the President said, I have his quote, ``if 
somebody is working for ICE and there is a policy and they 
don't follow the policies, there is going to be consequences to 
it.'' So he referred specifically to those you have control 
over.
    My point is there is confusion about enforcement. There is 
confusion about what takes precedent. The other thing, too, is 
you testified about the number of deportations, domestic 
deportations. You said 2,000--I am sorry, how many domestic 
deportations in 2014?
    Ms. Saldana. I believe I said that number was----
    Mr. Mica. Well, while you look for that, the Administration 
and the President has said that we have had more deportations 
in the past 6 years of criminals; they are up 60 percent. We 
have conflicting information.
    Put up this chart that shows--I updated the chart that 
shows deportations, interior deportations, domestic. This isn't 
quite to the end, so it was 102,000, to be fair. That actually 
shows a decline, is that correct?
    Ms. Saldana. Over that period of time, that is.
    Mr. Mica. That is until last year.
    Ms. Saldana. And I see that the source is ICE. I am not 
sure what in particular, but I think those numbers you got from 
us----
    Mr. Mica. So it is actually declined. You are not saying 
this information is wrong.
    Ms. Saldana. No, sir.
    Mr. Mica. OK. The other thing, too, is we were recently 
told from one of the ICE officers that his office used to 
process as many as 100 aliens a day, but since the President's 
executive orders went into effect, they are now processing 5 to 
10 aliens a day. That means that they are spending 20 times as 
much in resources, because you have similar resources, to 
deport each alien. Is that the case?
    Ms. Saldana. I am not familiar with those numbers that you 
are quoting.
    Mr. Mica. Well, again, we are also deporting fewer, if you 
do the math, it is costing us more to deport fewer folks.
    Ms. Saldana. And I think you and the American public 
deserve a response to that, sir.
    Mr. Mica. We do.
    Ms. Saldana. As you know, and this is good news, Customs 
and Border Protection has been apprehending far fewer persons 
at the border this past year than they ever have. They are at 
24 percent decline in apprehensions at the border. That should 
be good news. I know that Mexico and other countries that I 
have visited since I have been with the Department have ramped 
up their efforts to try to stop people before they come into 
the United States.
    Mr. Mica. But the fact is, as the chairman pointed out, we 
are harboring, keeping, and releasing criminal illegal aliens 
and not taking care of that important aspect.
    Thank you.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you for being here, Director Saldana.
    Ms. Saldana. Thank you.
    Mr. Cartwright. I want to revisit what the gentleman from 
Florida, Mr. Mica, said, he had a chart up and he showed you 
that for about 25 seconds. Had you ever seen that before, 
Director Saldana?
    Ms. Saldana. I have not.
    Mr. Cartwright. OK. Did you get a full chance to analyze 
what subset of immigration data that was representing, 
director?
    Ms. Saldana. No. There was very fine print down there. I am 
63 years old; my eyes are not as good as they used to be.
    Mr. Cartwright. And are you aware of any reason members of 
this committee could not have provided you that chart ahead of 
time so that you could have analyzed it and answered questions 
intelligently about it?
    Ms. Saldana. No. In fact, I would be delighted to do so, 
take that chart and come back.
    Mr. Cartwright. OK. Since we are talking about statistics, 
under the Obama Administration, DHS has enforced U.S. 
immigration laws, resulting in the removal of more unauthorized 
immigrants in the United States than during any other 
administration in United States history. Am I correct in that?
    Ms. Saldana. Yes, sir.
    Mr. Cartwright. All right. The removal of criminals has 
also more than doubled from the prior administration, that is, 
the George W. Bush Administration. Removal of criminals has 
more than doubled from the Bush Administration, from 84,000 in 
2003 to 207,000 in 2012, another record high. Are you aware of 
that, director?
    Ms. Saldana. Yes, I have that.
    Mr. Cartwright. All right.
    I want to talk about the DHS funding bill. A few years ago 
we had bipartisan momentum in the House of Representatives for 
comprehensive immigration reform. But that was before what I 
call the shutdown crowd took over. And it is not all the 
Republicans, but there is a certain element of them that I call 
the shutdown crowd. Last year the shutdown crowd among the 
Republicans refused to budge on immigration reform, they 
refused to take action on the Senate-passed bipartisan 
comprehensive reform bill.
    So, of course, the Administration carried out a series of 
executive orders to address the problems directly, and since 
then the Republicans have focused their efforts really on 
attacking the President rather than attacking the problem of 
comprehensive immigration reform. In fact, they were willing 
to, yes, shut down the Department of Homeland Security over it. 
They held the DHS funding bill hostage to protest the executive 
actions; they refused even to allow a vote on comprehensive 
immigration reform.
    Director Saldana, when your agency heard that Congress 
might not pass a DHS funding bill in time, what did ICE have to 
do to prepare for the possibility of a shutdown?
    Ms. Saldana. It was extraordinary and, of course, we went 
through this when I was the U.S. attorney back in Dallas last 
year, as well. You have to take the attention of people off the 
very important work they are doing and provide guidance on 
things like not showing up for work, for example, if we did not 
have any money; certainly not carrying on with the grants that 
we have that we award local law enforcement in order to assist 
us in our very important efforts. Never mind the human toll it 
takes on the 20,000 employees that we have.
    The mission is the most important thing in terms of the 
impact, and to take away our ability to do what we can do--and 
we can do a lot--is by guessing whether or not we are going to 
have funds at the end of the week. I think we went through this 
very painfully 2 weeks in a row. It was just very difficult.
    Mr. Cartwright. What sort of resources and staffing did you 
have to redirect to make the preparations for the shutdown?
    Ms. Saldana. Well, all of our front office governing all 
the staff we have in the Country--and let's not forget the 
attaches we have in 47 foreign countries--were taken off of 
their daily tasks and put to identifying the staff that we 
might need to lay off, might need to send home; making sure we 
had made arrangements for people to have a place to work even 
though they weren't getting paid; lining up our budget people 
who had to work day and night in order to make sure that we 
were going to be able to honor the contracts, for example, with 
respect to the detention facilities that we have in several 
parts of the Country, to be able to honor our contracts with 
those people to maintain those folks in detention that were in 
detention in our facilities.
    Mr. Cartwright. I don't mean to interrupt, but can you give 
us an idea, a ballpark figure, of how much it costs to get 
ready for this shutdown that was looming at the time?
    Ms. Saldana. It was millions of dollars, sir, but I don't 
have a precise number.
    Mr. Cartwright. In your opinion, was that a wise use of 
taxpayer funds?
    Chairman Chaffetz. I thank the gentleman.
    Go ahead and answer that question, but we will need to move 
to the next.
    Ms. Saldana. No, sir.
    Mr. Cartwright. Yield back.
    Chairman Chaffetz. And I would remind the gentleman that 
the Democrats had the House, the Senate, and the presidency the 
first year, 2 years of the Obama Administration, and they 
didn't even introduce a bill dealing with immigration. And I 
would also remind the gentleman who was in the 112th Congress, 
that we actually passed a bill that I sponsored. I am grateful 
for the broad bipartisan work. It went over to the Senate and 
Harry Reid decided never to pull it up; otherwise, I think we 
would have helped this problem.
    We will now recognize the gentleman from North Carolina, 
Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you for your testimony here today. I want to return 
to what the chairman started out with, and it is about the word 
discretion, because you have indicated about laws and about the 
rule of law, and yet there are many who would say that this 
Administration, specifically ICE, picks and chooses which laws 
they choose to enforce. And you may call it prioritization, but 
is that not just a discretion that you choose to use on what 
you enforce and what you don't enforce?
    Ms. Saldana. Well, it is grounded in a rational approach, 
Congressman.
    Mr. Meadows. Is it discretion or not? Yes or no? I am not 
saying----
    Ms. Saldana. Is discretion discretion?
    Mr. Meadows. I am not saying that it is not grounded in 
something. But are you using discretion on who we deport and 
who we don't deport?
    Ms. Saldana. I believe discretion means discretion, yes.
    Mr. Meadows. Are you using discretion, yes or no?
    Ms. Saldana. Yes.
    Mr. Meadows. OK, so let me ask you this. If you are using 
discretion on who we deport and, according to your report, 
there are some 900,000 people who are waiting to be deported, 
they are not detained, how are we going to find those people in 
the United States?
    Ms. Saldana. We have a number of information data bases 
that have last known addresses----
    Mr. Meadows. So if they have moved from their last known 
address and you have 900,000, almost a million people that you 
are saying that you are going to deport, do you believe that 
you can find 900,000 of them here in the United States?
    Ms. Saldana. Perhaps 900,000, 100 percent, but we have some 
very savvy law enforcement officers who can do some good old 
fashioned police work and are very good at it.
    Mr. Meadows. So would it not have been a better use of 
resources, Mr. Cartwright was talking about resources, just to 
have kept them in custody?
    Ms. Saldana. Custody decisions, sir, by law, are determined 
by two basic factors: public safety--we can't just detain 
people because we want to detain them.
    Mr. Meadows. Granted.
    Ms. Saldana. And threat to the community.
    Mr. Meadows. So let's go on to another. Let's go to the 
tier two. Sexual abuse, exploitation. You have already talked 
about how that is awful. But according to your deportation 
priority, if they commit a crime, sexual abuse or exploitation, 
you don't deport them. That is not a priority, is that correct? 
Yes or no? Is it a priority?
    Ms. Saldana. It is a priority. It is called priority two, 
sir. It is priority level two.
    Mr. Meadows. So do you deport all illegals that are here 
that have committed a sexual abuse or exploitation? Do you 
deport them all?
    Ms. Saldana. We don't have the ability to deport without an 
order of removal. We will apprehend and arrest them if we 
encounter them.
    Mr. Meadows. All right. So let me bring it back home, then, 
maybe, because sitting at that same table--and the reason why 
we are so passionate--were two relatives of people who lost 
their lives because of our prioritization or the discretion 
that you are using.
    But let me go even further, because when we look at a 
number of people in North Carolina that have been killed by 
drunk drivers, that they have failed to be deported over and 
over--one of these had been convicted of drunk driving five 
times, killed a husband named Scott, certainly put the wife in 
a vegetative State. But it is not just that. It is Marcus, who 
was 7 years old. He was killed by a drunk driver with repeated 
offenses that all we had to do was just deport them. And yet 
you are saying that that is not a priority.
    Ms. Saldana. I didn't say that, sir. And let me tell you, 
as a prosecutor, I would give my right hand----
    Mr. Meadows. But you are not a prosecutor anymore; you are 
a Director of ICE.
    Ms. Saldana. If I may answer the question.
    Mr. Meadows. Well, I didn't ask a question.
    Ms. Saldana [continuing]. So the American public can know 
who the director of ICE is.
    Mr. Meadows. You are making a comment.
    Ms. Saldana. As a prosecutor, I would love to get my hands 
on those people and personally prosecute them.
    Mr. Meadows. But you had your hands on those people. You 
had them in custody and you let them go.
    Mr. Meadows. You let them go.
    Ms. Saldana. Congressman, with all due respect, I do not 
have the facts that you have just cited in front of me.
    Mr. Meadows. Would you like for me to give them to you?
    Ms. Saldana. I would love to. In fact, I would like every 
case that you know of----
    Mr. Meadows. But this is over and over.
    Ms. Saldana. If I may finish, sir.
    Mr. Meadows. There are 22,000 examples----
    Ms. Saldana. If I may finish, sir.
    Mr. Meadows. There are 22,000 examples where this has 
happened. And the American people have had enough.
    Ms. Saldana. And let me tell you what I have learned. With 
respect to Mr. Shaw and Mr. Ronnebeck, that is not an unusual 
situation to me. I have sat next to victims of crime and 
homicides, and had to deal with them when we were prosecuting 
cases, and I will say that I would love to be the first person 
to prosecute Mr. Altamirano, the person who committed that 
horrendous crime.
    And let me say a frustration of mine, if I sound emotional 
on this also. My frustration is the quibbling I hear here when 
we are trying to do a law enforcement job, the quibbling I 
hear. Mr. Ronnebeck, in that very emotional, tremendously 
personal Statement, said something that I thought was so wise. 
He urged this committee and every Member of Congress to set 
aside their personal interests and differences, and to move 
forward with comprehensive immigration reform so that this does 
not happen again. I am all for that.
    Mr. Meadows. But here is the thing. Comprehensive 
immigration reform does not affect when we allow convicted 
criminals to go free. It would not affect that.
    I yield back.
    Chairman Chaffetz. Let me just mention year after year the 
budget request, with this year being the first time the budget 
request in the Administration keeps going down. So to say that 
you want to be able to do this and that you need more 
resources, but the budget does not reflect that is just 
inconsistent.
    Mr. Cummings. Mr. Chairman? Mr. Chairman?
    Chairman Chaffetz. Sure, sure.
    Mr. Cummings. Would you let her respond to what you just 
said? I think that would benefit the whole committee.
    Chairman Chaffetz. Sure.
    Mr. Cummings. Why is it that the budget requests have gone 
down?
    Ms. Saldana. From last year, sir?
    Chairman Chaffetz. Each year, with the 2016 budget request 
being the exception, 2012, reduction in funding by $53 million; 
2013, reduction by $91 million; 2015 was a reduction in funding 
by $155 million.
    If you could get back to us on the record on this. It 
doesn't make sense because I always here from law enforcement, 
oh, we wish we could, we wish we could. But then when we look 
at the requests, less and less beds. That was the request.
    Let me recognize Mr. Mica here for a unanimous consent 
request.
    Mr. Mica. Mr. Chairman, I just ask unanimous consent to 
insert in the record after the end of our discourse on the 
interior deportations between 2009 and 2014, and I have 
annotated the chart. It was 100,000, 114 within 14 days, the 
final figure being 102,224. The director had said she had not 
seen this and was not aware of these figures. So I would ask 
that be put in the record.
    I will also provide her with a large copy she won't have to 
use her glasses for.
    Ms. Saldana. Thank you so much.
    Mr. Mica. And I will provide the minority with a copy, too, 
Mr. Cummings.
    Chairman Chaffetz. All right, without objection, so 
ordered.
    Chairman Chaffetz. We wanted to make sure that if you 
wanted to say anything else about the budget request, that you 
had an opportunity to do so.
    Ms. Saldana. Sir, I can only speak for the agency. We 
welcome any amount of money that we have. We can always do more 
with more resources. We are just doing the best we can with the 
resources we have right now.
    Chairman Chaffetz. Thank you.
    We now recognize the gentlewoman from Michigan for 5 
minutes.
    Mrs. Lawrence. Thank you, Chairman and Ranking Member 
Cummings for holding this hearing.
    I want to echo something that as we as a committee and 
Members of Congress debate and analyze and do our due 
diligence, that it is truly important, and I think we highlight 
it every time we have a hearing, that we need comprehensive 
immigration reform. It is badly needed to address these issues 
that we are talking about. And I wish that we would use as much 
passion as we are using in finding those areas that we find 
unacceptable to use that to improve and to develop 
comprehensive reform.
    Assistant Secretary Saldana, I understand that there are 
hundreds of thousands of immigrants waiting an average of 587 
days for a hearing, and that they are waiting three to 5 years 
for their cases to be resolved. It is also my understanding 
that there are only 260, only 260 immigration judges operating 
in 58 U.S. immigration courts in our Country. In fact, my home 
State of Michigan, we only have two immigration judges for the 
entire State.
    With immigration judges responsible for an average, an 
average of 1,500 cases a year, it is no wonder that the 
National Association of Immigration Judges is saying that these 
people can wait for years, for years, for a final hearing of 
their cases.
    I know that the Office of the Chief Immigration Judge is 
housed in the Department of Justice and not in the Homeland 
Security. But as they are essential to the removal process that 
we are talking about, or the litigation process, I am trying to 
understand how your two agencies work together.
    So, Assistant Secretary, you tell me what happens to 
detainees while they await their court dates, and specifically 
outline your role and the Department of Homeland Security.
    Ms. Saldana. OK. And when you were referring to detainees, 
Congresswoman, we are talking about people who are in our 
custody?
    Mrs. Lawrence. Yes.
    Ms. Saldana. Obviously, we have some very important 
standards to ensure their safety and their attention to all 
their needs; medical, food, housing, and everything, while they 
are waiting. I will tell you that I am not blaming the courts, 
but I will tell you this is a system, the immigration system 
involves various parties, and the immigration courts are 
obviously a very important part of that.
    We have almost half a million people waiting to hear about 
their petitions. And I know that the Congress did allow for 
some more judges. I would urge this committee to do everything 
it can, and I am more than happy to work with you all to try to 
come up with some more answers to adding more judges to the 
immigration courts. But they are an essential part of what we 
do.
    I have met with Juan Osuna, the coordinator for the 
Department of Justice. I had worked with Mr. Osuna when I 
worked on the Attorney General's Advisory Committee for 
Immigration and have a good relationship with him. We are going 
to try to have meetings fairly regularly to talk about 
everything we are doing and what they can do help us and what 
we can do to help them.
    I have also tried to solicit a meeting with the chief judge 
of the immigration courts to explain to that person the need to 
coordinate and get as much help as we can to reduce the 
backlog.
    I just plead for more help in that regard from all of you 
all.
    Mrs. Lawrence. At this committee's hearing on February the 
25th, we discussed a number of legal constraints that DHS 
faces, and releasing these detainees. ICE sent a letter on 
August 15th, 2014, to Senator Grassley, addressing some of 
these issues.
    I ask for unanimous consent to enter this response into the 
record, Mr. Chairman.
    Chairman Chaffetz. Without objection, so ordered.
    Mrs. Lawrence. According to this letter, ``ICE has no 
discretion for the release of many of these individuals.'' This 
letter also explains that a 2001 Supreme Court case, Zadvydas 
v. Davis, requires certain detainees to be released from DHS 
custody. Can you explain how it affects ICE's ability to keep 
individuals in detention?
    Ms. Saldana. As I mentioned earlier, we are a part of a 
large group of organizations that touch undocumented workers. 
Immigration courts are ones, the Supreme Court of the United 
States is another. And in that decision they required us, they 
ordered us. So when we say there are 30,000 releases that ICE 
does, that leaves out a couple of facts, and one of those is 
that almost half of those are those that ICE is required under 
the Zadvydas order; the other half are the immigration courts, 
which have made their own custody determinations, and they are 
allowed to by law, and have revisited and decided that we are 
to release those. We follow orders of the court.
    Mrs. Lawrence. Mr. Chairman, before I yield my time, I just 
want to make sure that we understand that comprehensive 
immigration reform is needed. We have the courts, we have the 
Department of Homeland Security, we have ICE. And until we, as 
a Congress, step forward and do what we need to do with 
comprehensive reform, we will continue to come forward looking 
at these issues and finding what is not right, and we need to 
make it right.
    Thank you so much.
    Chairman Chaffetz. I thank the gentlewoman.
    Members are advised that we have a vote on the floor. We 
are going to recognize Mr. Hice for 5 minutes and then the 
intention is to go into recess. We do not anticipate being back 
here any sooner than 25 minutes before the hour, so other 
members are advised to vote on the floor. We are going to 
recognize Mr. Hice for 5 minutes and then go into recess.
    Mr. Hice. Thank you, Mr. Chairman.
    The bottom line of what we are dealing with, obviously, is 
the question as to why ICE is releasing convicted criminals who 
are non-citizens back into the public square. Is it fair to say 
that the reason for that ultimately comes down to policy?
    Ms. Saldana. I am sorry, with respect to those that we have 
discretion over, sir?
    Mr. Hice. Well, why are we releasing illegal criminals back 
into the public square? That evidently has to do with policy at 
the end of the day, is that true?
    Ms. Saldana. It has to do with our case-by-case 
determinations that some person can meet the----
    Mr. Hice. So there is no policy overruling this? So it is 
just a case-by-case; some you let go, some you keep, and there 
is no policy dictating who you keep and who you release?
    Ms. Saldana. Actually, it is very specific guidance.
    Mr. Hice. So it is policy?
    Ms. Saldana. It is direction and policy, yes, sir.
    Mr. Hice. OK. All right, so when it comes to policy on who 
is released and who is not released, we are not dealing, then, 
with rogue agents or law enforcement individuals who are not 
abiding by the policy. They are not making their own 
determination; they are doing what they are told to do, is that 
correct?
    Ms. Saldana. That is correct.
    Mr. Hice. OK. So then we must go a level up higher than 
that. The problem is not the agents or law enforcement 
individuals; the problem is either with you or with policy that 
is coming and pressuring you one way or the other. But it is 
not the problem with the agents. So who is putting this policy 
forward? Is this your policy, is this your choice, your 
discretion to release these illegal criminals back into the 
public square?
    Ms. Saldana. Sir, it is our discretion based on a very 
rational analysis of the facts and circumstances for every 
person that comes before us. To answer your question, let me 
say the secretary put out the November 20th memorandum where he 
outlined specifically his priorities, and I will tell you that, 
just like you and the chairman and the ranking member, that 
number of 30,000 caught my attention real quick.
    Mr. Hice. The 66,000 over the last 2 years, and this is 
very poor discretion if policy is saying these people should be 
deported and they are not being deported, they are being placed 
right back in our neighborhoods. I spoke this morning with a 
sheriff in Gwinnett County, which is the third largest county 
in the Nation in terms of dealing with this problem, and he 
says that he doesn't even hear from you when you all are 
releasing illegal criminals back in his county. Why is it that 
ICE is not even informing law enforcement departments?
    Ms. Saldana. Let me point out, Congressman, again, I don't 
want to quibble with you, but when you say ICE released 66,000, 
I point out to you once again that about half of those were 
releases that we were ordered to do. Now, with respect to the 
other half, let me say specifically I have directed our chief 
counsel, our field office directors, and our officers out 
there, all of them.
    Mr. Hice. Please be quick.
    Ms. Saldana. Because of my concern, I announced another 
level of review so that I can be satisfied that these decisions 
are being rationally made. It may offend somebody that we are 
looking over their shoulders, but we are going to do it so that 
I can be satisfied of this. I am asking every field officer, 
director at that level or close to that level, associate 
directors, to review every----
    Mr. Hice. All right, let's go on. I want you to answer my 
question here. We are dealing with sheriff departments across 
this Country who are not even in communication with your 
department, with ICE, and ICE is releasing criminals back in 
these areas, and these sheriffs are not being informed of it. 
Why is that?
    Ms. Saldana. I am trying to answer the question.
    Mr. Hice. Well, be quick, please.
    Ms. Saldana. OK. That policy that I am talking about that I 
have advised everybody about includes notification to State and 
local law enforcement when we do release a criminal; not only 
the additional levels of review which I announced and have put 
in place and actually issued a press release with respect to it 
yesterday, the additional level of reviews.
    Mr. Hice. So are you telling us that law enforcement agents 
from here on out are going to be informed? Give me the bottom 
line.
    Ms. Saldana. It is going to take us a little time to get 
the system going and make sure we are all talking to each other 
electronically, but that is what we are doing.
    Mr. Hice. When will that be in place?
    Ms. Saldana. I cannot give you a specific date, but we are 
working as fast as we can on that. And let's not forget the 
secretary and the deputy secretary's efforts, along with 
myself, going across the Country, meeting with police chiefs 
and sheriffs to discuss this new system and everything we are 
doing in connection with----
    Mr. Hice. Will it be in place this year, by the end of this 
year?
    Ms. Saldana. I am very hopeful, sir, yes. I will get back 
to you on specifically where we are when we get back after this 
hearing.
    Mr. Hice. Mr. Chairman, I yield back.
    Mr. Cummings. Mr. Chairman, as has become the custom in our 
committee, when we have folks coming before us and they say 
that they are going to get something done, I would like for us 
to have some kind of deadline so that you can come back. The 
gentleman asked some good questions. I just want to make sure 
we followup.
    Chairman Chaffetz. What is a reasonable timeline?
    Ms. Saldana. To return?
    Chairman Chaffetz. No, to provide the information that he 
is asking for.
    Ms. Saldana. Oh, 2 weeks?
    Chairman Chaffetz. Fair enough. Fair enough. Thank you.
    Ms. Saldana. Thank you.
    Chairman Chaffetz. The committee will stand in recess. We 
will reconvene no sooner than 10:35, depending on the length of 
the votes.
    [Recess.]
    Chairman Chaffetz. The committee will come to order.
    We are now going to recognize the ranking member. I believe 
we had a followup question just prior to going into recess, and 
then after that question we will recognize the ranking member 
for 5 minutes.
    Mr. Cummings. Madam Secretary, what we were asking about 
before, Mr. Hice had asked you some questions about when the 
things that you announced yesterday, I think, would be up and 
running. That is the deadline that we were talking about.
    See, what happens, madam, is that after being here for 18 
years, one of the things I have noticed is that people will 
come in, tell us they are going to do things, and we don't 
followup. They wait until another Congress, and it never gets 
done. So what we are trying to do, and I applaud the chairman 
for this, we are trying to--you tell us when, and then we need 
to bring you back in or somebody back in to say it was done. 
OK? So tell us. You know what I am talking about, right?
    Ms. Saldana. Yes.
    Mr. Cummings. Is your mic on? Because I want us to be 
clear. I want our expectations to be clear with each other.
    Ms. Saldana. Yes, absolutely. I am one of these people that 
makes lists and try to check them off, so we will be sure to be 
doing that.
    Mr. Cummings. Tell me what it is that you will be doing so 
that we will all be clear.
    Ms. Saldana. OK, what I announced yesterday is with respect 
to this issue of the criminal releases, I want to satisfy 
myself that we are doing everything we can to make sure we are 
doing the right decisions. So there were four aspects to that 
initiative that, quite frankly, I was directed by the secretary 
to review and have come up with. And in addition to the 
additional oversight of every decision that is made with 
respect to a criminal release, that has already been done.
    Actually, that is one, two, and three of my directive. 
Those are already in place. Everybody who is out there is 
acting accordingly. That is, a person makes a custody decision 
or a bond determination; a field office director or someone 
equivalent is reviewing that; and on a monthly basis we are 
gathering senior managers to review all of those decisions.
    The fourth aspect is the one I said--so let me just be 
clear. Those top three are done.
    Mr. Cummings. Are done. OK.
    Ms. Saldana. They are in place. They are happening now.
    Mr. Cummings. OK. Now, tell me No. 4, because that is where 
I want to go.
    Ms. Saldana. No. 4 is the communication with State and 
local jurisdiction is to make sure they know ahead of time that 
we are releasing a criminal into their community, because we 
want them to keep tabs on those folks, too, and be aware of 
that. So that is the one that is going to take a little bit 
more time because it involves tapping into a system we already 
have for victim notification to expand it to State and locals. 
That is just going to take a little bit more time, and that is 
what I was saying, is I have to go back and visit with my folks 
to see exactly where we are with respect to that.
    Mr. Cummings. When can you give us a date? I want you to 
tell us when you can give us a date so that we will be certain. 
I want you to be real clear why I am saying this. Life is 
short, and I want to be effective and efficient in every single 
thing I do, even if it is going to that door. So we want to 
make sure that we get back so we have some kind of check, that 
is all.
    Ms. Saldana. I am with you, sir.
    Mr. Cummings. OK, so you will let us know by?
    Ms. Saldana. I will let you know by the end of the week the 
best date that I can come up with.
    Mr. Cummings. OK. That is good.
    Ms. Saldana. I am going to come up with a date, sir.
    Mr. Cummings. All right. OK. All right.
    Chairman Chaffetz. OK, go ahead.
    Mr. Cummings. Thank you very much. Thank you, Mr. Chairman. 
Just trying to be effective and efficient.
    Assistant Secretary, according to publicly released 
information, 36,000, we have heard this figure over and over 
again, criminal immigrant detainees were released during Fiscal 
Year 2013. Is that correct?
    Ms. Saldana. It is 30,007, I believe is the number.
    Mr. Cummings. OK. Well, DHS determined that 1,000 of these 
individuals were since convicted of new crimes. Is that right?
    Ms. Saldana. Yes.
    Mr. Cummings. So if I did my math right, that is about 2.8 
percent recidivism rate, is that about in that vicinity?
    Ms. Saldana. It is under 3, yes.
    Mr. Cummings. OK. And in April 2014, the Department of 
Justice issued a report on recidivism, and I ask unanimous 
consent to enter that report in the record.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Cummings. This report shows that prisoners released in 
30 U.S. States at the 12-month mark had a recidivism conviction 
rate of more than 20 percent. Does that surprise you?
    Ms. Saldana. No, that is a figure I am very familiar with 
as a United States attorney.
    Mr. Cummings. By the way, as a lawyer, I can tell you that 
I have a lot of respect for U.S. attorneys. I don't know 
whether you were leaving the U.S. attorney's spot to come to 
this one. I don't know why you did that.
    Ms. Saldana. You question my intelligence, sir?
    Mr. Cummings. No. But I am just saying you are held in high 
esteem.
    But how do you believe ICE officials are performing, given 
a recidivism rate of 2.8 percent? Are you satisfied?
    Ms. Saldana. I would like it to be zero.
    Mr. Cummings. Yes, I would too.
    Ms. Saldana. But I cannot--I will tell you if we were to 
get it down to zero, we were almost requiring our officers to 
have total prescience, be able to predict things that have not 
yet happened; and that is an extraordinary standard I can't 
hold folks to. What I do hold them to is to be trained on what 
to look for in determining flight risk and threat to the 
public.
    Mr. Cummings. Well, that leads me to my next question. What 
are you doing to further improve the risk assessment processes 
that ICE officials use for the release of criminal detainees? 
And are those criteria for risk assessment, are they reviewed 
at any time? Do you review them and change them?
    Ms. Saldana. Yes. And when you say you, not me personally, 
but persons responsible for them.
    Mr. Cummings. Yes.
    Ms. Saldana. We actually have been re-tweaking this risk 
classification system. Mind you, we put in all kinds of data 
with respect to the undocumented immigrant, and it gives us a 
risk classification. We took another look at it after these 
priorities came out in November 20th that the secretary 
announced; we re-tweaked it. We are looking at it all the time, 
Congressman. So what we have asked, though--that is just an 
assessment.
    Mr. Cummings. I understand.
    Ms. Saldana. Then you have a human being actually looking 
at the entire facts, the number that comes out in the 
assessment, the facts and circumstances to make a determination 
based on their training and their experience--we have some very 
well experienced officers out there--to make a judgment on 
whether these people meet the bond requirements or not.
    Mr. Cummings. So my sense is that if we want to talk about 
recidivism rates, let's do that, but let's not narrowly assume 
that the struggles that ICE faces are unique among law 
enforcement agencies.
    Ms. Saldana. Very familiar with that struggle.
    Mr. Cummings. I think about a judge. One reason why I have 
never been asked to be a judge is because it is hard to judge 
sometimes. I mean, in other words, you have to assess a 
situation, in sentencing, for example, and try to figure out 
what fits in this particular instance.
    I also understand that ICE uses alternatives to detention 
and that ICE's full service program has a 95 percent success 
rate. Can you explain how alternatives to detention work? What 
is that?
    Ms. Saldana. That is an identification of good candidates 
for, based on again, intensive factual analysis, to be released 
and not detained based on whether, again, they represent a 
risk, whether they are a good candidate.
    And we have had extraordinary success with that; those 
people are actually showing up. We have asked for and gotten a 
little more money in 2015 to expand this program. We are making 
those decisions all the time with respect to the candidates. 
Based on that success, we are asking for even more money in 
2016 in regard to this, because when we see something that 
works, we want to continue using it.
    Mr. Cummings. Just one more question, Mr. Chairman. Let me 
ask you, what are the alternatives? Is there more than one?
    Ms. Saldana. Yes. It is anything you would use actually 
with a bond person; that is, monitoring, ankle bracelets. They 
are out, but they are being supervised, for example; report in 
more often than otherwise. There are alternatives to putting 
someone in a detention center versus having them out there but 
with a short leash.
    Mr. Cummings. In the prison cell.
    Thank you very much, Mr. Chairman.
    Chairman Chaffetz. Thank you.
    I will now recognize the gentleman from Florida, the 
chairman of the Subcommittee on National Security, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Good morning, director. I have noticed that the President, 
particularly since he issued his executive actions on November 
20th, has stressed that we are doing this in order to protect 
the public from criminals, gang members, and he has repeated 
that a lot. In fact, I think we have a clip very recently where 
he was----
    [Video.]
    Mr. DeSantis. Well, we are having technical difficulties. 
But I think the quote was a very emphatic admonition that 
criminals, gang members, these likes, these are the folks who, 
when they are here illegally, they obviously need to be 
returned to their home country.
    But it has come to our attention on the committee that law 
enforcement officers are being provided with mixed guidance in 
this regard. There is a hypothetical scenario that we have 
received in some of the training materials that officers use, 
and basically here is the scenario: John Doe entered the United 
States illegally in 2009. He does not have any lawful status. 
He is 25 years old and in State custody on a pending criminal 
street gang charge. When Border Patrol contacts the police 
department about the case, it advises the Border Patrol officer 
that Doe is a known gang member with gang affiliations and 
documented gang tattoos on his body.
    He has not been convicted of this yet, so is it the case 
that he may not fall into priority 1(c), relating to gang 
members?
    Ms. Saldana. It is the case that he may not. But as I 
mentioned earlier, I am not sure that you were here at the 
time, the priorities also are very clear that on that case-by-
case assessment that the officer does, he must take a look at 
the whole picture and whether or not there is a conviction or 
some other very obvious reason to hold him, that if that 
officer believes, in that extensive experience that most of 
them have and the training they have received, that that person 
presents a threat to public safety, they have the discretion to 
request that they be detained.
    Mr. DeSantis. And I understand that and I trust some of 
these officers are very knowledgeable and have great 
experience, but it does conflict a little bit with what the 
President is saying. The President is saying if you are a gang 
member, you are gone. And basically what this guidance is 
saying is, well, if you are a gang member, if you haven't been 
convicted, you may be gone, but you also may not be gone. And 
the problem with that is that I think that allows people who 
would represent a danger to our society to potentially fall 
through the cracks.
    Now, this is a little bit different than the gang 
situation, but we had the family member of the convenience 
store clerk in Arizona who was murdered by someone who was in 
the Country illegally, was involved with the law, was 
definitely a problem individual released by DHS and obviously 
really shattered that family's life.
    So I think that what I have learned by just looking at 
this, and this is before you became director, when there is 
discretion, sometimes this is a big bureaucracy, there are so 
many people that are involved in this and it has been Stated on 
both sides of the aisle and it is true, there are way more 
people here illegally than we have the resources to enforce the 
law against.
    But I just worry that if you are saying that we have zero 
tolerance for gang members, I think the policy should be zero 
tolerance. I mean, if we have that intelligence from a local 
law enforcement, the person is here illegally anyway, so they 
wouldn't even have needed to do that to be sent back under 
existing law, so I just wonder why we would leave it to chance. 
If mistakes are made, those mistakes are going to end up having 
the American people pay for those mistakes, potentially.
    We had a fellow by the name of Jamiel Shaw in front of this 
committee a couple weeks ago on the subcommittee, and this was 
long before you were there, it was even before I think the 
current President was in office, but his son was an aspiring 
football player, was doing well in school. They lived in the LA 
area and he was murdered on the way back home from school by 
somebody who was a gang banger, had been in trouble with the 
law, but had been released, and there wasn't coordination 
between the local and the Federal authorities.
    So I would just say the President's guidance needs to match 
his rhetoric. And if we are going to have zero tolerance for 
gang members, I would like to see, once we understand that, I 
would like to see an expeditious repatriation to that 
individual's home country.
    My time has expired and I yield back.
    Ms. Saldana. May I comment on that real quickly?
    Thank you, sir. I did look at that testimony of Mr. Shaw 
and I was very moved. We have reviewed that file. There had 
been no encounter with ICE before he committed that offense.
    Mr. DeSantis. Why was that, though, because the locals 
didn't want to coordinate?
    Ms. Saldana. I can't speak for the locals, I am sorry. But 
I will tell you that, again, it is on me if these officers 
aren't being properly trained and having their questions 
answered. As I said earlier, I have directed everyone to take 
these criminal cases very seriously; have instituted those 
procedures I talked about earlier. I am with Mr. Shaw on this.
    Chairman Chaffetz. Thank you.
    We will now recognize the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman.
    Chairman Chaffetz. Wait, wait, wait. My bad. I did not 
recognize Eleanor Holmes Norton, who is the gentlewoman from 
the District of Columbia. It is her turn to go first, and then 
we will recognize the gentleman from Georgia.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Ms. Saldana, as you heard the questions, some of them are 
the kinds of questions you would expect certainly from the 
average Americans, you know, kind of throw the bones out 
questions. And, of course, if you catch people at the border, 
that is one thing. If you catch people who have been involved 
in our criminal justice system, it is another. And I would like 
to put some of that on the record because part of this is the 
frustration, forgive me, with due process of law, how it 
operates, even with respect to people that have been found, 
yes, to have committed crimes in this Country, but they have 
been found through our due process court system.
    I want to ask you about Section 236 of the Immigration and 
Nationality Act, about discretionary release. For example, such 
people who you apprehend may, for example, qualify for bond, is 
that not the case?
    Ms. Saldana. That is.
    Ms. Norton. Now, if you caught those people at the border, 
that would be one thing, but they are now in our criminal 
justice system. And though they are illegal and perhaps 
shouldn't be here, and perhaps have committed a crime, now they 
are in the criminal justice system. Under Section 236 of the 
Immigration Act they qualify for bond the way any other 
defendant would.
    Ms. Saldana. Congresswoman, if I could just clarify. They 
are not part of the criminal justice system. Bond 
determinations are made comparable to, analogous to what the 
criminal justice considerations are when determining bond in 
those cases. But these are administrative detentions.
    Ms. Norton. Yes, that is an important distinction you make. 
I am trying to get to the due process question.
    Ms. Saldana. Right. And that detention, the bond 
determination is provided in the statute.
    Ms. Norton. That is what 236 does.
    Ms. Saldana. Yes.
    Ms. Norton. So it says bond. It says that part of due 
process does apply to these detainees. Now, in these cases, why 
might it be better for DHS, the detainee, for that matter, and 
the community at large to release the detainee?
    Ms. Saldana. Why is it better?
    Ms. Norton. Why might it be better to release them.
    Ms. Saldana. Well, every case, Congresswoman, every case, 
the only thing we are thinking about is public safety; and the 
two considerations about flight risk and threat to the 
community; and, by statute, even in some cases, humanitarian 
reasons.
    Ms. Norton. Would you say what some of the factors are in 
releasing detainees?
    Ms. Saldana. There are a whole host of them, and this is 
very much like the criminal justice system in bond 
determinations: the severity of the crime, how long ago it was 
committed, the circumstances and facts of the underlying 
offense, the ties to the community.
    Ms. Norton. Can you talk about a flight risk? I mean, is 
that one?
    Ms. Saldana. Yes, absolutely. That is where ties to the 
community, financial resources, where the person has a job.
    Ms. Norton. I see.
    Ms. Saldana. All of those are considerations. There is a 
whole host of them.
    Ms. Norton. What about the criminal record?
    Ms. Saldana. Absolutely. The nature of their criminal 
record, their offenses, their current offense, all their 
history going back that we have access to.
    Ms. Norton. Of course, we see in our own criminal justice 
system how problematic these decisions are made. Many of them 
are guesstimates, but at least they are on the record based on 
a record of some considered judgment.
    Ms. Saldana. Yes.
    Ms. Norton. Some evidence. And many of the questions you 
have had this morning assume that based on what we think we 
already know, and some of that may absolutely turn out to be 
true, these people should be thrown out of the Country. And I 
remind my colleagues who over and again refer to the 
Constitution at-large, but when you get into the nuts and bolts 
of it, some of it is very frustrating; and one of the most 
frustrating parts of the Constitution is due process of law.
    And what you have explained here today about bond and 
flight risk is what we see every day in the ordinary criminal 
justice system, and 236 of the Immigration and Nationality Act 
that this Congress has passed says that those same factors must 
be considered by ICE.
    I thank you, Mr. Chairman.
    Ms. Saldana. And if I may just say it is a frustration that 
we all have. I took issue many times with the Federal courts 
decisions on matters when I was asking for bond and did not get 
it. Congresswoman, I started out my career very early on in the 
Equal Employment Opportunity Commission as an investigator and 
an intake person, so I became familiar with you at that time.
    Ms. Norton. Look at you now.
    Ms. Saldana. My goodness.
    Chairman Chaffetz. Now recognize the gentleman from 
Georgia, Mr. Carter, for 5 minutes.
    Mr. Carter. Again, thank you for being here, Ms. Saldana. 
We appreciate it very much.
    It is my understanding that ICE officers and Border Patrol 
agents are being directed through internal memos not to ask 
questions concerning why people are here illegally in the 
United States. Can you tell me what these internal memos say?
    Ms. Saldana. I can only speak for Immigration and Customs 
Enforcement, sir. I am not aware of any such memo. I can't 
speak for CBP; I really don't know. The memos we are sending 
out is to give guidance on the secretary's priorities that he 
announced on November 20.
    Mr. Carter. OK. Let me ask you this and let me remind you 
you are under oath, and you recognize that. Let me ask you are 
you directing officers or agents, or anyone, not to follow the 
law but, instead, to follow the policies of the Administration?
    Ms. Saldana. Anything I have done since December 23d, when 
I was sworn into office, has been to direct our people to 
follow the law.
    Mr. Carter. So you are not directing your people to follow 
the policies of the Administration.
    Ms. Saldana. The law and the policies as the Secretary of 
Homeland Security has announced November 20th.
    Mr. Carter. OK.
    Mr. Chairman, at this time I would like to ask to be 
entered into the record a press release by the National Border 
Patrol Council dealing with a recent town hall meeting in Miami 
that President Obama said there would be consequences for 
Border Patrol agents or ICE officers who do not follow the DACA 
and DAPA policies and remove qualifying illegal aliens from the 
United States.
    Chairman Chaffetz. Without objection, so ordered.
    Mr. Carter. In fact, we have a clip of that.
    Ms. Saldana. This is Border Patrol?
    Mr. Carter. Yes, ma'am.
    Ms. Saldana. That is our sister agency.
    Mr. Carter. We have the clip. Here we go.
    [Video.]
    Mr. Carter. Can you tell me what these consequences are?
    Ms. Saldana. That the President is talking about?
    Mr. Carter. Yes, ma'am.
    Ms. Saldana. I cannot. I can tell you in general with 
respect to any member of an agency, organization, a private 
company, any member has to abide by the policies and the 
directives at the top. I mean, that is pretty straightforward.
    Mr. Carter. But, you know, when you use the word 
consequences, that is somewhat threatening. I want to know what 
the consequences are. Can you tell me what those are?
    Ms. Saldana. The consequences, I cannot tell you what the 
President was talking about. I cannot. I can tell you that if 
someone is not doing their job, there are consequences, up to 
and including termination; there is discipline, there is 
suspension, there is penalties. All kinds of things that can 
start from a written reprimand all the way to termination. That 
is basic employment.
    Mr. Carter. But do you consider not doing their job as not 
following the law or not following the Administration's policy?
    Ms. Saldana. It is not following the law and the policies 
of this Administration. It is both, sir. Policy is just as 
critical as law.
    Mr. Carter. Policy is just as critical as law?
    Ms. Saldana. Yes.
    Mr. Carter. But what about when policy doesn't agree with 
what the law is, when it is in direct conflict of what the law 
is?
    Ms. Saldana. I would say that is a problem. But I am not 
aware of that in this case with respect to immigration and 
customs enforcement. And again, Congressman, I really can't 
speak to Border Patrol and the customs and border protection.
    Mr. Carter. OK, a minute ago you spoke about the memos that 
you have sent out. Can we get copies of them?
    Ms. Saldana. Absolutely. The one I was talking about, in 
fact, we may have a copy with us right now. I will make sure 
you get it even before the conclusion of this hearing, the one 
that I sent out yesterday.
    Mr. Carter. Now, I am not talking about just the one. I 
want to see the internal memos that you have sent out to Border 
Patrol agents and to ICE officers.
    Ms. Saldana. Sir, let me make it clear. I am the Director 
of Immigration and Customs Enforcement. There are seven 
agencies within Department of Homeland Security. I do not send 
directives to employees of Customs and Border Protection; they 
are not my employees.
    Mr. Carter. I understand. What about ICE?
    Ms. Saldana. Yes, I do send directives to ICE.
    Mr. Carter. Can we get those?
    Ms. Saldana. You may have any directive I have sent to ICE.
    Mr. Carter. OK. One last question. Are you familiar, are 
you aware of any other director involved in this process who 
has sent out directives to ICE officers, Border Patrol offices, 
or anyone else, not to follow the law, but, instead, to follow 
the policy of the Administration?
    Ms. Saldana. I am not aware of that.
    Mr. Carter. OK. Thank you very much.
    I yield back my time.
    Chairman Chaffetz. Thank the gentleman.
    We will now recognize the gentleman from South Carolina, 
Mr. Mulvaney, for 5 minutes.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Thank you, Ms. Saldana, and thank you for sticking around 
after the votes. I just have a couple of random questions 
following up on things that you have said and things that other 
folks have asked you.
    You mentioned earlier on today that apprehensions at the 
border are down and that this is good news. Were you aware that 
previously Ms. Napolitano had testified before Congress that 
apprehensions at the border were up and that this was good 
news?
    Ms. Saldana. No, I was not aware of that.
    Mr. Mulvaney. So it seems like it is good news if we are 
apprehending more and good news if we are apprehending less. 
Really, the number of apprehensions at the border isn't the 
measure, is it? It is the number of folks who actually are able 
to cross without being apprehended. Would you agree with that?
    Ms. Saldana. Of course. Of course.
    Mr. Mulvaney. OK. So you come and you say, look, 
apprehensions are down. That is not determinative as to whether 
or not it is good news.
    Ms. Saldana. Not determinative, sir, but I would think you 
all would think that is a good thing.
    Mr. Mulvaney. No, ma'am, actually, because you could come 
in and say we didn't apprehend anybody, that is zero, and that 
is great news, and we would disagree with that.
    Ms. Saldana. It reflects border security to me if we are 
stopping everybody that comes across and there are zero 
apprehensions.
    Mr. Mulvaney. OK, so there is my question. How many folks 
are getting across without being apprehended?
    Ms. Saldana. How do I know something that is not happening?
    Mr. Mulvaney. Do you have any data as to whether or not 
that number is increasing, decreasing, staying the same?
    Ms. Saldana. And let me be sure I understand your question.
    Mr. Mulvaney. Sure.
    Ms. Saldana. Would you repeat it, please?
    Mr. Mulvaney. Sure. You have mentioned the number of folks 
who are apprehended at the border. I have suggested to you that 
that is not the measure of success of the program. The measure 
of success of what you are doing is the number of people who 
are crossing into the Country illegally, without being 
apprehended.
    So my question to you is do you have any data as to whether 
or not that number is going up in the last couple of years, 
going down, or staying the same.
    Ms. Saldana. I have no data that reflects something that is 
not happening.
    Mr. Mulvaney. OK. So you have no idea if it is working or 
not.
    Ms. Saldana. Oh, I do. I do.
    Mr. Mulvaney. No, ma'am, you don't, because you could come 
in here and say, look, we apprehended five times as many as we 
did last year, and that is evidence of us doing a great job; 
and that is what Ms. Napolitano said previously. Or you could 
come in and say what you said today, which is we only 
apprehended half as many as we did last year, and that is 
evidence of us doing a good job. And those things are 
nonsensical.
    Ms. Saldana. I presume that you, sir, as well as every 
other congressperson here, wants us to apprehend everybody that 
is coming across the border illegally.
    Mr. Mulvaney. Yes, ma'am.
    Ms. Saldana. And, if possible, get that down to zero.
    Mr. Mulvaney. Yes, ma'am.
    Ms. Saldana. So zero would be good news. I believe we all 
agree on that.
    Mr. Mulvaney. But you are talking about the other half of 
the equation, which is the number of people you are 
apprehending, not the people who don't get apprehended.
    Let me ask you this. Has the definition of turned back 
south or deported, has that changed in recent history?
    Ms. Saldana. I am not familiar with that.
    Mr. Mulvaney. So when you come in and you say that the 
number of people we turned back at the border has gone up or 
gone down, that definition of what you are using, I think the 
term is TBS, that definition has not changed in the last couple 
years?
    Ms. Saldana. The persons at the border are Customs and 
Border Protection, most likely, and there are some 
circumstances, if I am understanding this correct, where they 
do turn back people back into Mexico.
    Mr. Mulvaney. I guess the point I am getting at, when the 
President says that we deported more people than we ever have 
before, has the definition of what that means changed in the 
last couple of years?
    Ms. Saldana. Not that I am aware of.
    Mr. Mulvaney. Okay. All right.
    Let me followup on a couple different things. You said 
before that there were communities and local governments that 
were denying you access. Tell me about that.
    Ms. Saldana. This is one of the challenges that I mentioned 
in my opening Statement, sir, and I enlist the help of anybody 
that I can get help from on this issue. Because our biggest 
priority is criminals, convicted felons in particular, we need 
to work with State and local jurisdictions who are apprehending 
undocumented workers for offenses against State and local law.
    They have them in their custody; we can now communicate 
with the State and local jurisdiction and get some notice in 
advance, through our detainer request, to let us know that they 
are about to release them because they have served their State 
custody sentence and that we can take possession of them 
because of their violation of the law; and now we have a 
convicted criminal here.
    Mr. Mulvaney. But they are denying you the ability to do 
that.
    Ms. Saldana. Some jurisdictions are.
    Mr. Mulvaney. Why?
    Ms. Saldana. I can't speak for them. I will tell you some 
of them have policies and laws that are telling----
    Mr. Mulvaney. Do you believe that you have--I am sorry to 
cut you off. Do you believe that you have the legal right to 
force them to comply with your requests?
    Ms. Saldana. I cannot say that the detainee notices are 
mandatory; they are definitely discretionary.
    Mr. Mulvaney. Would it surprise you if the Administration 
had taken a different position on that in the recent past?
    Ms. Saldana. Well, we have argued that and there is pending 
litigation everywhere on this topic. I think you may be 
familiar with the Oregon case.
    Mr. Mulvaney. Would it help you if we clarified the law to 
make it clear that it was mandatory that those local 
communities cooperate with you?
    Ms. Saldana. Thank you. Amen. Yes.
    Mr. Mulvaney. Thank you, Ms. Saldana. I appreciate the 
opportunity.
    Chairman Chaffetz. Thank you.
    Now recognize the gentleman from Texas, Mr. Hurd, for 5 
minutes.
    Mr. Hurd. Thank you, Mr. Chairman, thank you, ranking 
member.
    And to Director Saldana, as a fellow Texan, welcome to 
Washington, DC.
    Ms. Saldana. Thank you.
    Mr. Hurd. My first question is, how does the inability of 
deporting every person that violates our laws impact future 
illegal immigration?
    Ms. Saldana. I am not sure. I think if we could deport 11 
million people there might be a message sent that you really 
shouldn't be coming into the United States. But I think that is 
fairly impractical.
    Mr. Hurd. So how does a criminal alien actually get 
released, the process? They are in our custody, in U.S. 
Government custody, they get charged. What is that process?
    Ms. Saldana. I can speak to when we are in the picture.
    Mr. Hurd. Sure.
    Ms. Saldana. And this is bound by statute. I think the 
Immigration and Nationality Act is about this big. But what 
happens is we arrest them, they come into custody, we process 
them, take fingerprints, get all kinds of information on them 
so we can establish a data base. Very early on the question is 
we have to make ICE--this is ICE--has to make a custody 
determination and whether bond is appropriate.
    Based on the factors that I talked about earlier, that 
decision is made. Either they go into a detention center 
because we say there is no bond allowable, or we say the bond, 
and I believe the minimum is $1500 all the way up to whatever 
is necessary in our view to get them to report in the future is 
then assessed.
    If not, they can challenge that determination by ICE, and 
they do very, very often. So then they go into the immigration 
court for the immigration court then to say, ICE, you were 
right in your bond determination or no, you should let these 
release. So that half of the people that I think we have been 
talking about, 30,000 that were released in 2013 and another, 
36,000 in 2013 and another 30,000 in 2014, that is where the 
immigration courts have come in or the Zadvydas case and said 
they must be released; ICE, you do that.
    Mr. Hurd. So do you think all criminal aliens should be 
deported?
    Ms. Saldana. Yes. If we encounter them and get our hands on 
them, sure.
    Mr. Hurd. Okay.
    Shifting a little bit to another topic, the surge of 
unaccompanied minors and families that we experienced last 
summer. Are you anticipating another surge this spring or 
summer? And what are you doing specifically? And I recognize 
that all elements of DHS are involved in that, and I am 
interested in hearing what ICE is doing to be prepared.
    Ms. Saldana. Well, we learned some very hard lessons last 
summer, so as I think many of you are aware, we have ramped up 
our family facilities because, of course, the surge involved 
unaccompanied children and families with children. So we have 
established Dili that I visited about a month ago and have 400 
or so units already developed with people in them, and we are 
expanding and should conclude up to 2400 units by May.
    We are gathering all the intelligence we can get, some of 
which I cannot share in public here, but I am happy to share it 
with you in a classified setting, to try to see if we can 
expect that again this year. I do know that what I met with the 
minister of security in Mexico City a few weeks ago, that he 
feels very strongly that we may be getting some more people up 
here. Mexico has done an extraordinary job in stopping quite a 
few people--they report in the six figures--before they even 
get to the United States.
    Mr. Hurd. On that area, you are saying Mexico is doing a 
good job of helping. What areas, what countries where we are 
seeing illegal immigration come from that are not being 
supportive or where there is room for growth?
    Ms. Saldana. A very critical one is China. I am actually 
going there this next week to sign a repatriation agreement 
where, as the result of work that I can't take credit for, 
although I would like to, that has been done with ICE 
officials, they have convinced the Chinese government to assist 
us with respect to interviewing Chinese nationals who we are 
removing from the Country. We are very happy for that step. We 
will continue to work with them and other countries to try to 
improve that situation.
    Mr. Hurd. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mulvaney [presiding]. And I thank the gentleman.
    We now recognize the gentlelady from Illinois, Ms. 
Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman. I am glad I made it 
over here. Running between hearings.
    Last week, ICE announced the arrest of over 2,000 convicted 
criminal immigrants as a result of a nationwide operation known 
as Operation Cross Check. According to ICE, of the 2,059 
individuals arrested, more than 1,000 had multiple convictions 
and more than 1,000 had felony convictions, including robbery, 
voluntary manslaughter, and rape.
    Assistant Secretary Saldana, is this correct?
    Ms. Saldana. Yes. That is who we targeted, was people with 
serious criminal offenses, violent offenses.
    Ms. Duckworth. And what led ICE to engage in this 
nationwide operation?
    Ms. Saldana. Well, actually, this is something ICE does 
every day, fugitive operations; try to locate those people at-
large that we were talking about that perhaps we couldn't get 
through cooperation with State and local jurisdictions. So what 
we did was for a matter of weeks we worked toward--and this is 
our sixth operation in this regard; we do it once or twice a 
year. We searched all our resources to go through all the 
intelligence we had, information we have in data bases to 
identify people who were anywhere in the Country where we could 
identify people fitting that pattern of meeting our priorities.
    Then we went out, and actually I got up 4:30 Sunday morning 
about 3 weeks ago with my bulletproof vest, and met up with a 
team of extraordinary ICE officers and actually we were able to 
locate and arrest two people on my team. The number is over 
2,000. It was an extraordinary effort. Of course, when you do 
that, then you are not doing the day-to-day work, but that is a 
function that is right up our wheelhouse and exactly what we 
should be doing, and that is going after the worst of the 
worse, and that was an example of it.
    Ms. Duckworth. Can you explain how the individuals arrested 
will be prosecuted and processed, since you arrested them, and 
what is the next step? How will they be prosecuted and 
processed for, for example, removal from the United States?
    Ms. Saldana. They go into the removal process. We issue a 
notice to appear. In some cases we may have some people who 
already have an order of removal. That will be easier to get 
them out of the Country. And, of course, once again, as 
Congresswoman Norton noted earlier, there are some due process 
requirements, but we are moving as expeditiously as possible to 
remove them from the Country.
    Ms. Duckworth. Thank you. As a former U.S. attorney, can 
you explain how this operation reflects the Administration's 
new November 20, 2014 prosecution priorities? You said this was 
right up your wheelhouse.
    Ms. Saldana. Yes. You mentioned the list of offenses. Those 
are serious assaults, other crimes, serious crimes that have 
been done, and that is where we should be spending every 
Federal dollar that the Congress has authorized us to spend, is 
on getting those people, identifying them, locating them, and 
getting them out of the Country and away from the American 
public.
    Ms. Duckworth. Wonderful. You talked about this balance 
between doing your regular duties and an operation like this, 
Operation Cross Check, and how if you are doing this you are 
not able to focus as much on the regular duties. Do you think 
this was a successful step toward prioritizing for prosecution, 
convicted criminals and public safety threats, operations like 
Cross Check? You say you do several of them a year, right?
    Ms. Saldana. Yes, and it was very successful. Actually, it 
was extraordinarily successful. Again, this is an 
administrative process. The officer goes up and knocks on the 
door to see if the individual is in there, and I cannot say 
this enough. I am sorry if I am repeating myself, but when we 
don't have the cooperation of State and local jurisdictions, we 
are putting our officers at greater risk. My palms are sweating 
again thinking about these officers knocking on a door and not 
knowing what to expect when somebody opens the door.
    We had a very good success rate; I think it was something 
like 20 percent of the people that we were looking for answered 
and we were able to arrest them.
    Ms. Duckworth. And targeting and identifying of these 
criminals, you said that it is better with the local law 
enforcement support. Are you getting some of that? I assume 
there will be more of these operations in the future. How do 
you prepare for that so that you have that high success and 
arrest rate so that you can go and find the right person and 
get these very hardened criminals off the streets?
    Ms. Saldana. Well, I am actually thinking about expanding, 
and we are talking about it internally, our fugitive operations 
because there are people out there that we need to locate and 
get out. It is a vital part of what we do and, again, the 
priorities are these violent criminals, gang members, those 
kinds of things; and I think we had all of them represented in 
this group of 2,000-plus that we were able to arrest.
    Ms. Duckworth. Thank you. It is clear that ICE's 
enforcement efforts continue to contribute to this record 
number of apprehensions of very serious criminals. Thank you.
    I yield back, Mr. Chairman.
    Mr. Mulvaney. I thank the gentlelady.
    We now recognize Mr. Russell, the gentleman from Oklahoma, 
for 5 minutes.
    Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, Director Saldana, for all of the work that 
you do. Public service is often thankless, as you know. While 
we might have differences, I do appreciate your service.
    The President recently said, in a national address, if you 
are a criminal, you will be deported. Is that really true?
    Ms. Saldana. If you are a criminal, we are going to locate 
you, arrest you, and put you in removal proceedings and deport 
you.
    Mr. Russell. But with over 160,000 convicted criminals 
still at-large in the United States, do you believe that is 
being held accountable?
    Ms. Saldana. This is what I do. This is what we are trying 
to achieve. We are looking for them. We are going to find them. 
I will tell you there will be no stone unturned to try to 
locate every one of them. Will we have a 100 percent success 
rate? That is probably impractical. But we are doing everything 
we can to find them.
    Mr. Russell. And of the 2,000 criminals recently 
apprehended this month, as it was announced, how many had been 
apprehended by ICE previously?
    Ms. Saldana. I think there was 1,000. I think there were 
1,000 that we had. You mean by ICE? I am sorry.
    Mr. Russell. Or by anyone.
    Ms. Saldana. Or some other law enforcement agency?
    Mr. Russell. Of the 2,000 criminals that were apprehended 
as being on the most dangerous list, how many had been in 
custody of the United States law enforcement agencies before?
    Ms. Saldana. There were quite a few. I don't have that 
number right at hand.
    Mr. Russell. It speaks to a problem that if these were the 
most dangerous and these were at the top of the heap for 
targeted and we had held them in our custody once before, but 
we didn't think it important enough to prevent their release.
    How many of the 2,000 will be deported?
    Ms. Saldana. They are all in removal proceedings.
    Mr. Russell. And can you provide confirmation to us of 
those numbers as they are deported?
    Ms. Saldana. Yes, sir.
    Mr. Russell. The last interesting thing, in a recent town 
hall meeting in Miami, President Obama said that there would be 
consequences for Border Patrol agents or ICE offices who do not 
follow the DACA or DAPA policies to remove qualifying illegal 
aliens from the United States. What are those consequences for 
Border Patrol agents who remove those illegal aliens?
    Ms. Saldana. As I just Stated, I am the Director of ICE. 
Customs and Border Protection is one of the other agencies with 
the Department of Homeland Security----
    Mr. Russell. And I understand that, but you work 
interrelated. What do you think the President would be speaking 
of there that there would be consequences on agents that are 
trying, like yourself, to uphold the law?
    Ms. Saldana. They are employees and, as I just Stated a 
minute ago, it is like any other employee; if they are not 
following the directives of the top, then anything from a 
reprimand to ultimately termination can occur. And I will tell 
you that is my view. I do not know what the President was 
talking about.
    Mr. Russell. Well, sure. But let me ask you as the director 
and as a prosecuting attorney and someone who has served the 
public for a long time, putting criminals behind bars, do you 
like such restrictions and being told that you can't uphold 
what you know the rule of law to be?
    Ms. Saldana. I wish, I wish, and I mean this sincerely, I 
could get every criminal immigrant who is illegal in the 
Country out of the Country as quickly as possible, and I am 
doing everything I can to do that.
    Mr. Russell. Do you feel that you are being prohibited by 
the executive?
    Ms. Saldana. No, sir. We have our hands full. We have our 
hands full with the priorities; the murderers, the rapists. We 
have our hands full. Those are the people we are out to look 
for. We are interested in public safety, border security, and 
national security; and that is where our focus is.
    Mr. Russell. But doesn't it create a little bit of an 
intimidating environment when you have the chief executive 
making threats to agents that are trying to uphold the law and, 
when you have limited resources, changing rules? I mean, you 
deal with these people. You mentioned them yourself in earlier 
testimony here of how dangerous these criminals were and the 
types of offenses that they had done. Knowing your passion for 
upholding that, how does that make you feel, as a director of 
an agency so vital to our security, to have what appears to be 
intimidation Statements being made by the executive?
    Ms. Saldana. I have made it very clear to all almost 20,000 
employees that I expect them to uphold the highest standards, 
and, quite frankly, we have an employee manual that is quite 
extensive, where people know that if they do not represent the 
agency well or they commit, themselves, crimes, there will be 
consequences. So, quite frankly, I think it is an important 
thing to communicate clearly to employees what the expectations 
are.
    Mr. Russell. Well, I appreciate that and I understand that 
people that try to uphold the law can face consequences. I hope 
those that are illegally here and are breaking the law and are 
dangerous, as we have heard in testimony, even some losing 
members of their family to these criminals, I would hope that 
they would be the ones that would have the consequence.
    I yield back my time. Thank you.
    Mr. Mulvaney. I thank the gentleman. I apologize for being 
a little quick with the gavel, but I will let the members know 
that votes have been called. We have 14 minutes left and two 
members in the queue, so we hope to move through and wrap up 
the meeting.
    Recognize now for 5 minutes the gentleman from North 
Carolina, Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman. I will try to take 
maybe half my time.
    Thank you for your patience. I know sometimes the questions 
seem repetitive. I am going to go in a different direction 
today.
    Last month, the secretaries of State from Kansas and Ohio 
testified right there about their concern about illegal aliens 
having access to vote; the Social Security numbers gathered 
from the President's referendum. But the bigger concern was 
they wanted to keep the rolls very pure and very clean for the 
people who are actually citizens that are voting.
    My question is do you believe the States should have access 
to the DHS's immigration records so that they can reconcile 
these voting rolls? I would like to hear your thoughts on that.
    Ms. Saldana. I really have not given that thought, sir. 
That is not something within the jurisdiction of Immigration 
and Customs Enforcement, and I have not really studied the 
question. I would like to give you an informed opinion, and I 
just don't have the facts.
    Mr. Walker. So you have no opinion today on whether the 
States should have the information based on some of these 
Social Security numbers that have been distributed out? You 
feel like the States, you just don't have an opinion on that?
    Ms. Saldana. It sounds like a reasonable proposition but, 
again, I like to give informed opinions, and I just don't know 
the facts.
    Mr. Walker. Well, then let me ask it this way. Do you 
believe that illegals should have any opportunity to vote in an 
election, whether it is local or whether it is a national 
election?
    Ms. Saldana. I am not an expert on the benefits that are 
provided to some people who are in the Country and who are 
undocumented, but I don't think they have the right to vote, 
sir. I don't think that is provided by law.
    Mr. Walker. Even with a Social Security number, even before 
they become a citizen or go through the process, you are 
telling me--I want to make sure I have this on the record--that 
you believe those people should not have an opportunity to 
vote?
    Ms. Saldana. I do not know that they do. I don't believe 
they have the right, illegal, undocumented aliens----
    Mr. Walker. And how would we know that unless the 
information is shared from the DHS to the States?
    Ms. Saldana. I wish I had time to consider that and work on 
that, but I have so many issues to deal with at ICE that I 
haven't really focused on it.
    Mr. Walker. All right. Well, then let me move in a 
different direction real quick, since that is fair. Hopefully, 
at one point you will have a chance to look at that, because 
that is very important, some of the States, that they are 
having accurate elections.
    The number that we have talked about several times, 167,527 
number of convicted criminal aliens that have not been 
deported. That is a big number, isn't it? That is a huge 
number.
    Ms. Saldana. Yes.
    Mr. Walker. One of the numbers, though, that really 
concerned me, as well as the 167,000, is the 30,558 that 
currently are unlawfully here in the United States. I think I 
did the math a second ago. There is an average of 400 cities 
per State. Times 50 is 20,000 cities. So if you look at the 
average, that is 1.5 criminals that are here right now in our 
Country. Does that number alarm you?
    Ms. Saldana. One alarms me. I would like to see them all 
out of the Country.
    Mr. Walker. Okay.
    Well, because of time constraints, we are going to let my 
fellow member, Ken Buck, share his time, so I am going to yield 
back to the chairman.
    Mr. Mulvaney. Thank the gentleman.
    We will recognize Mr. Buck for the final 5 minutes, and 
some more, if he wants it.
    Mr. Buck. At the risk of missing votes, I will be brief.
    I actually didn't come here to argue or to ask any 
questions; I just wanted to pass a message to you. I am dating 
myself, but as a Federal prosecutor I worked with INS agents, 
not ICE agents. Then as a district attorney I worked with ICE 
agents.
    And I have to tell you that some of the very best people I 
worked with were from INS and ICE, and the folks that you have 
on the ground are absolutely passionate about the mission that 
you have with your agency; and, as a prosecutor, I am sure you 
probably share my view of I don't want to call them the old INS 
agents, but INS agents.
    The problem I have, and I think the challenge that you have 
and the message that I wanted to deliver to you today is that 
the sense of mission is becoming frayed. I think they are 
getting a lot of mixed messages from DC. While their heart is 
in public safety and while they are doing their very best to 
protect the public and work with local law enforcement and work 
with prosecutors and sheriffs offices and police departments, I 
think they are getting a mixed message. I would just encourage 
you to try to work with those folks who are on the ground that 
I have seen really struggling.
    And I don't say this in a partisan way, but really having a 
morale issue as a result of the various messages being sent out 
there, both by mayors and city councils and county commissions 
and others, as well as folks in DC. We were doing much better 
in 2005, 2006, 2007 in terms of being able to hold people in 
the local jail and move them through the process. There was a 
much clearer sense of really what the priorities should be than 
there is now.
    So I just wanted to present that to you in as neutral a way 
as possible and just encourage you to work with those people 
because if we lose them, it is a loss to the Federal 
Government, it is a loss to the public safety.
    That is really all I wanted to say. If you would like to 
comment, I open this for dialog.
    Ms. Saldana. I hadn't been on the job 6 hours when I met 
with all the senior staff and recognized that principle in 
particular, and that is we can't do our jobs without the women 
and men of the agency knowing what their job is, doing it well. 
We owe them the training and the tools necessary to do their 
job well.
    Part of that is very clear communication. I have started 
that; I intend to improve on it. I have asked for a 
professional development plan giving our people the tools and 
the training they need to do their job; having their questions 
answered. It is very much, very much at the top of my list, and 
I appreciate you sending that message along; I couldn't agree 
more.
    Mr. Buck. And if there is anything I can do to help, but if 
there is anything we can do in terms of legislation to help in 
that way, I certainly would welcome the opportunity to work 
with you on this.
    Ms. Saldana. I look forward to taking you up on that. You 
may regret having made that offer. I will see you to talk about 
that, and any member here. Thank you.
    Mr. Buck. Thank you.
    Mr. Mulvaney. I thank the gentleman and remind our members 
we have about 7 minutes remaining on vote, so for now I will 
recognize the ranking member for his closing comments.
    Mr. Cummings. Madam Secretary, I want to thank you very 
much for your testimony. It is clear that you have a very, very 
difficult job and calls for a lot of balancing; and the people 
who work with you, they have very difficult jobs, and I am sure 
they quite often come under criticism and it is not easy 
sometimes. But I just want to take a moment to thank you and to 
thank them for what they do every day.
    As I sat here and I keep listening to you, I can't help but 
just keep in mind, and I hope all members understand the 
significance of a former U.S. attorney. That is serious 
business. And you have sworn to uphold the law. As a matter of 
fact, I am sure you put a lot of people in prison as a U.S. 
attorney. So I think we need to keep in mind that people are 
doing the best they can with the tools that they have.
    Sadly, there will be folks who will fall through the 
cracks, people who should not be on the street. It happens, 
unfortunately. And like I told you, when I think about the pain 
of the witnesses that testified in our last hearing, talking 
about their loved ones, I can relate big time. The idea of 
having a young person's life snuffed out and then mourning for 
the rest of your life of what could have been for them. So, 
again, you have our support.
    I want to remind you to get back to us with regard to the 
information we requested and thank you.
    Ms. Saldana. Thank you.
    Mr. Mulvaney. I thank the gentleman.
    Ms. Saldana, on behalf of the committee, I thank you. 
Congratulations on your first hearing. My guess is part of it 
met your expectations and part of it was probably a little bit 
different than you expected. But we do appreciate your time. We 
especially appreciate you making yourself available so that all 
the members could ask questions. Too many members of the 
Administration will come in and limit their time, and we do 
appreciate you making yourself available, and it is very 
appreciated. So thank you very much.
    We thank the witnesses and, if there is no further 
business, without objection, the committee stands adjourned.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]










                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
